Report on USAID’s Consolidated
Financial Statements, Internal Controls, and
Compliance for the Fiscal Year 2002
Audit Report No. 0-000-03-001-C
January 24, 2003




                   Washington, D.C.
This page intentionally left blank
January 24, 2003


MEMORANDUM
TO:             CFO/FM, Susan J. Rabern

FROM:           AIG/A, Bruce N. Crandlemire /s/

SUBJECT:        Independent Auditor’s Report on USAID’s Consolidated Financial
                Statements, Internal Controls, and Compliance for Fiscal Year 2002 (Report
                No. 0-000-03-001-C)

The Office of the Inspector General (OIG) is transmitting its reports on the audit of the U.S.
Agency for International Development’s (USAID’s) fiscal year (FY) 2002 financial
statements, related internal controls, and compliance with applicable laws and regulations.
Under the Government Management Reform Act of 1994, USAID is required to prepare
consolidated fiscal year-end financial statements. For FY 2002, USAID is required to
submit the audited financial statements to the Office of Management and Budget (OMB)
and the U.S. Department of the Treasury (U.S Treasury) by February 1, 2003.

Enclosed are the OIG’s reports on USAID’s FY 2002 financial statements, related internal
controls, and compliance with applicable laws and regulations. We are pleased to report
that we are able to issue opinions on all five principal financial statements. This is an
important milestone and represents significant progress by USAID. However, on the
Statement of Net Costs, the opinion was achieved only through extensive efforts to
overcome material weaknesses in internal controls. Although these efforts resulted in
auditable information on the statement of net costs, the efforts did not provide timely
information to USAID managers to make cost and budgeting decisions throughout the year.

With respect to internal controls, our report discusses seven material weaknesses and three
reportable conditions identified during the audit. The material weaknesses were related to
USAID’s process for (1) allocating Program Expenses on its Statement of Net Costs, (2)
reconciling its Fund Balance with the U.S. Treasury, (3) calculating the Allowances for its
Credit Program, (4) recording and classifying its Advances to Grantees and Related
Expenses, (5) reviewing, analyzing, and deobligating its Unliquidated Obligations as
necessary, (6) calculating and reporting its Accounts Payables, and (7) recognizing,
recording, and reporting its Accounts Receivable.
    The reportable conditions address USAID’s needs to (1) establish a monthly general ledger
    closing procedure, (2) improve its controls over the management of property at USAID
    overseas missions, and (3) improve its procedures for preparing the Management’s
    Discussion and Analysis section of the Accountability Report required by the Federal
    Accounting Standards Advisory Board.

    We are reporting that USAID is not in substantial compliance with the financial
    management systems requirements of the Federal Financial Management Improvement Act
    of 1996 (FFMIA), the Computer Security Act of 1987, and the Debt Collection and
    Improvement Act of 1996. However, USAID is making progress towards becoming
    substantially compliant.

    This report contains ten recommendations to improve USAID’s internal controls for the
    preparation of its annual financial statement required under the Chief Financial Officer’s
    Act. (See Appendix III for the status of uncorrected findings and recommendations from
    our prior audits that affect the current objectives).

    We have received and considered your response to the draft report and the recommendations
    included therein (see page 49). Based on your response, we have accepted your comments as
    management decisions. Please forward all information to the Office of Management, Planning,
    and Innovation for acceptance and final action. (See Appendix II for USAID’s Management
    Comments).

    We appreciate the cooperation and courtesies that your staff extended to the OIG during
    our audit. The Office of the Inspector General is looking forward to working with you on
    the audit of the fiscal year 2003 financial statements (in the agreed-to accelerated schedule)
    and to seeing improved systems and controls.




2
Table of   Summary of Results                                         5
Contents
           Background                                                 8

           Audit Objectives                                           8

           Audit Findings                                             11

                  Independent Auditor’s Report on USAID’s
                  Financial Statements                                11

                  Independent Auditor’s Report on Internal Controls   15

                  Independent Auditor’s Report on Compliance with
                   Laws and Regulations                               35

           Management Comments and Our Evaluation                     49

           Appendix I - Scope and Methodology                         53

           Appendix II - Management Comments                          57

           Appendix III - Status of Uncorrected Findings and
                          Recommendations from Prior Audits That
                          Affect the Current Audit Objectives         63

           Appendix IV - USAID Fiscal Year 2002 Financial
                         Statements and Accompanying Notes            69




                                                                           3
    This page intentionally left blank




4
             The Government Management Reform Act (GMRA) of 1994 requires the
Summary of
             U.S. Agency for International Development (USAID) to prepare and submit
Results      audited consolidated financial statements for inclusion in the government-
             wide financial statements. As part of this effort, GMRA requires the Office
             of Inspector General (OIG) to:

             •       Audit the financial statements and issue an opinion on the fairness
                     of their presentation in accordance with generally accepted
                     accounting principles;

             •       Report on related internal controls; and

             •       Report on compliance with applicable laws and regulations.

             Auditor’s Opinion on USAID’s Fiscal Year 2002 Financial Statements

             In our opinion, USAID’s balance sheet, statement of changes in net
             position, statement of budgetary resources, and statement of financing
             present fairly, in all material respects, the financial position of USAID as of
             September 30, 2002, in conformity with generally accepted accounting
             principles.

             We were, however, unable to obtain sufficient competent evidential matter
             to support USAID’s allocation of about $384 million to the related
             responsibility segments on the statement of net costs.

             In our opinion, except for the inconsistencies in the process used by USAID
             to allocate program expenses related to obligations that support multiple
             Agency goals, USAID’s statement of net costs presents fairly, in all material
             respects, its expenses as of September 30, 2002, in conformity with
             generally accepted accounting principles. (See Pages 17 to 20)

             Other Required Supplementary Information

             According to the Federal Accounting Standards Advisory Board,
             Management’s Discussion and Analysis (MD&A) is required
             supplementary information. We did not audit and do not express an
             opinion on this information. However, we have applied certain limited
             procedures to determine the methods of measurement and presentation of
             the supplementary information. As a result of these procedures, we
             believe that the MD&A materially departs from prescribed guidelines in
             the following ways:

             1.      The MD&A did not contain a clear picture of USAID’s planned
                     performance for FY 2002.


                                                                                               5
    2.     Most performance information contained in the draft FY 2002
           MD&A was based on results achieved in FY 2001 or earlier.

    3.     The MD&A did not link costs to results.

    Further information on this finding is included in the Report on Internal
    Controls and the Report on Compliance with Laws and Regulations (see
    pages 32 and 42, respectively).

    Report on Related Internal Controls

    Our audit identified seven material internal control weaknesses (see pages
    17 to 29) and three reportable conditions (see pages 29 and 34) which are
    included in this report.

    The material weaknesses were that improvements are needed in the
    following USAID processes:

    1)     Allocating program expenses on its Statement of Net Costs.

    2)     Reconciling its Fund Balance with the U.S Treasury.

    3)     Calculating and reporting its Accounts Payable.

    4)     Recording and classifying Advances to Grantees and related
           expenses. (Repeat Finding)

    5)     Reviewing, analyzing, and deobligating its Unliquidated
           Obligations. (Repeat Finding)

    6).    Recognizing, recording, and reporting its Accounts Receivable.
           (Repeat Finding)

    7).    Calculating Credit Program Allowances.


    The reportable conditions related to USAID’s need to:

    1)     Establish a monthly closing procedure.

    2)     Improve its controls and management of its property at overseas
           missions.

    3)     Improve its system for preparing the Management’s Discussion and
           Analysis.




6
Report on Compliance with Laws and Regulations

USAID's financial management systems did not substantially comply with
the Federal Financial Management Improvement Act of 1996. Specifically,
USAID's financial management systems did not substantially comply with
Federal financial management system requirements, Federal Accounting
Standards, or the U.S. Standard General Ledger at the transaction level.
However, USAID is making progress towards becoming substantially
compliant. (See Pages 37 and 40)

Our audit also disclosed three instances of noncompliance with laws and
regulations that could have a direct and material effect on the principal
financial statements and required supplementary information. The laws
with which USAID did not comply were:

•      The Federal Financial Management Improvement Act of 1996.

•      The Computer Security Act of 1987.

•      The Debt Collection and Improvement Act of 1996.

We considered USAID’s internal control weaknesses and noncompliance
with laws and regulations to determine our auditing procedures for the
purpose of forming our opinion on the financial statements and not to
provide assurance on internal controls and compliance with laws and
regulations. We have provided additional information in the independent
auditor’s report on internal controls (see page 15).

USAID reported four material weaknesses in its fiscal year 2001
Accountability Report and will report three material weaknesses in its fiscal
year 2002 Accountability Report, which will be issued on February 1, 2003.




                                                                            7
                   The United States Agency for International Development (USAID) was
Background         created in 1961 to advance the United States’ foreign policy interest by
                   promoting broad-based sustainable development and providing
                   humanitarian assistance. USAID has an overseas presence in over 70
                   countries, 42 of which have operational and formal accounting stations.
                   In fiscal year 2002, USAID had total obligation authority of about $7.8
                   billion.

                   Under the Government Management Reform Act of 1994, USAID is
                   required to annually submit audited financial statements to the Office of
                   Management and Budget (OMB) and appropriate Congressional
                   Committees. Pursuant to this Act, for FY 2002, USAID has prepared the
                   following:

                   •   Balance Sheet,
                   •   Statement of Net Costs,
                   •   Statement of Changes in Net Position,
                   •   Statement of Budgetary Resources,
                   •   Statement of Financing,
                   •   Notes to the financial statements, and
                   •   Other accompanying information.


Audit Objectives   OMB Bulletin No. 01-02 and related GAO guidance established the
                   minimum audit requirements for Federal financial statements. For fiscal
                   year 2002, this Bulletin required us to:

                   •      Determine whether USAID's principal financial statements present
                          fairly in all material respects, and in conformity with generally
                          accepted accounting principles the (1) assets, (2) liabilities and net
                          position, (3) net costs, (4) changes in net position, (5) budgetary
                          resources, and (6) reconciliation of net costs to budgetary
                          obligations.

                   •      Obtain an understanding of USAID’s internal control to understand
                          the design of controls relevant to an audit of financial statements
                          and determine whether they have been placed in operation. Assess
                          control risk for the assertions embodied in the classes of
                          transactions, account balances, and disclosure components of the
                          financial statements.

                   •      Obtain an understanding of the components of USAID’s internal
                          controls relating to the existence and completeness assertions
                          relevant to the performance measures included in Management’s
                          Discussion and Analysis (MD&A).


 8
•      Report on USAID's compliance with laws and regulations that
       could have a direct and material effect on the principal statements
       and any other applicable laws and regulations.

•      Report whether USAID’s financial management systems
       substantially comply with the Federal Financial Management
       Improvement Act section 803(a) requirements.

For the first objective, we obtained sufficient evidence about the balances
in the material line items on USAID’s fiscal year 2002 financial
statements to enable us to form an opinion on those statements.

For the second objective, we obtained an understanding of USAID’s
internal controls and assessed the control risk for the assertions embodied
in the classes of transactions, account balances, and disclosure
components of the financial statements.

For the third objective, we gained an understanding of the internal controls
related to the existence and completeness assertions relevant to the
performance measures included in the MD&A.

For the fourth and fifth objectives, the OIG determined, among other
things, whether USAID’s financial management systems substantially
comply with federal requirements for financial management systems,
applicable Federal accounting standards, and the U.S. Standard General
Ledger at the transaction level, as required by Section 803(a) of the
FFMIA of 1996. (See Appendix I for our scope and methodology)

In accordance with the OMB audit requirements for Federal financial
statements, this combined audit report includes our separate reports on
USAID’s financial statements, internal controls, and compliance with
applicable laws and regulations.




                                                                              9
     This page intentionally left blank




10
        Independent Auditor’s Report on USAID’s Financial Statements

Audit Findings   Did USAID's principal financial statements present fairly: the assets,
                 liabilities, net position, net costs, change in net position, budgetary
                 resources, and reconciliation of net costs, and budgetary obligations
                 for fiscal year 2002?

                 We have audited the accompanying balance sheet, statement of changes in
                 net position, statement of net costs, statement of budgetary resources, and
                 statement of financing of USAID for the year ended September 30, 2002.
                 We conducted our audit in accordance with generally accepted auditing
                 standards; the standards applicable to financial audits contained in
                 Government Auditing Standards, issued by the Comptroller General of the
                 United States; and the Office of Management and Budget (OMB) Bulletin
                 No. 01-02, “Audit Requirements for Federal Financial Statements.” We
                 believe that our audit provides a reasonable basis for our opinion.

                 In our opinion, USAID’s fiscal year 2002 balance sheet, statement of
                 changes in net position, statement of budgetary resources, and statement of
                 financing present fairly, in all material respects, the financial position of
                 USAID for the year then ended, in conformity with generally accepted
                 accounting principles.

                 We were unable to obtain sufficient competent evidential matter to support
                 USAID’s allocation of about $384 million to the related responsibility
                 segments on the statement of net costs.

                 In our opinion, except for the inconsistencies in the process used by USAID
                 to allocate program expenses related to obligations that support multiple
                 agency goals, USAID’s statement of net costs present fairly, in all material
                 respects, the expenses of USAID as of September 30, 2002, in conformity
                 with generally accepted accounting principles.

                 For fiscal year 2001, we audited and issued qualified opinions on, USAID’s
                 balance sheet, statement of changes in net position, and statement of
                 budgetary resources. We were also engaged to audit the fiscal year 2001
                 statement of net costs and statement of financing, on which we disclaimed
                 opinions.

                 The financial statements are the responsibility of USAID’s management. In
                 that regard, USAID’s management is responsible for:

                 1.     Preparing the financial statements in conformity with generally
                        accepted accounting principles.



                                                                                               11
     2.     Establishing, maintaining, and assessing internal controls to provide
            reasonable assurance that the broad objectives of the Federal
            Managers’ Financial Integrity Act are met.

     3.     Establishing and maintaining that USAID’s financial management
            systems comply with Federal Financial Management Improvement
            Act (FFMIA) requirements.

     4.     Complying with applicable laws and regulations.

     The Office of Inspector General is responsible for obtaining reasonable
     assurance about whether the financial statements are presented fairly, in all
     material respects, in conformity with generally accepted accounting
     principles. In order to fulfill these responsibilities, we:

     1.     Examined, on a test basis, evidence supporting the amounts and
            disclosures in the financial statements.

     2.     Assessed the accounting principles used and significant estimates
            made by management.

     3.     Evaluated the overall presentation of the financial statements.

     4.     Obtained an understanding of internal control related to financial
            reporting (including safeguarding assets), compliance with laws and
            regulations (including execution of transactions in accordance with
            budget authority), and performance measures reported in
            Management’s Discussion and Analysis of the Accountability
            Report.

     5.     Tested relevant internal controls over financial reporting and
            compliance, and evaluated the design and operating effectiveness of
            internal controls.

     6.     Considered the process for evaluating and reporting on internal
            control and financial management systems under the Federal
            Managers’ Financial Integrity Act.

     7.     Tested whether USAID’s financial management systems
            substantially complied with the three FFMIA requirements.

     8.     Tested USAID’s compliance with selected provisions of the
            following laws and regulations:

            •   Anti-Deficiency Act,

            •   Prompt Payment Act,

12
        •   Debt Collection and Improvement Act, and

        •   Federal Credit Reform Act.

We did not evaluate all internal controls relevant to operating objectives as
broadly defined by the Federal Managers’ Financial Integrity Act, such as
those controls relevant to preparing statistical reports and ensuring efficient
operations. Instead, we limited our internal control testing to controls over
financial reporting and compliance.

Because of inherent limitations in internal controls, misstatements due to
error or fraud, losses, or noncompliance may nevertheless occur and not be
detected. We also caution that projecting our evaluation to future periods is
subject to the risk that controls may become inadequate because of changes
in conditions or that the degree of compliance with controls may deteriorate.
In addition, we caution that our internal control testing may not be sufficient
for other purposes. (See the FFMIA section of Compliance Report on
USAID’s FY 2002 financial statements for additional internal control
weaknesses.)

We did not test compliance with all laws and regulations applicable to
USAID. We limited our tests of compliance to those laws and regulations
required by OMB audit guidance that we deemed applicable to the financial
statements for the fiscal year ended September 30, 2002. We caution that
noncompliance may occur and not be detected by these tests and that such
testing may not be sufficient for other purposes.

In accordance with Government Auditing Standards and the provisions of
OMB Bulletin 01-02, we have also issued reports, dated January 24, 2003,
on our consideration of USAID’s internal controls and on its compliance
with laws and regulations. (See pages 15 and 35).

Management’s Discussion and Analysis (MD&A) is required
supplementary information according to the Federal Accounting Standards
Advisory Board. We did not audit and do not express an opinion on this
information. However, we have applied certain limited procedures to
determine the methods of measurement and presentation of the
supplementary information. As a result of these procedures, we believe that
the performance information reported in the MD&A materially departs from
prescribed guidelines in the following ways:

1.      The MD&A did not contain a clear picture of USAID’s planned
        performance for FY 2002.

2.      Most performance information contained in the draft FY 2002
        MD&A was based on results achieved in FY 2001 or earlier.

                                                                              13
     3.     The MD&A did not link costs to results.

     Further information is included in the Report on Internal Controls and the
     Report on Compliance with Laws and Regulations. (See pages 15 and 35,
     respectively).



     Bruce N. Crandlemire /s/

     Office of Inspector General
     January 24, 2003




14
                 Independent Auditor’s Report on Internal Controls


Audit Findings         Did USAID establish adequate internal controls related to its
                       financial statements and the performance measures contained in its
                       Management’s Discussion and Analysis section?

                       We have audited the financial statements of USAID for the fiscal year
                       ended September 30, 2002 and have issued our report thereon. We
                       conducted the audit in accordance with generally accepted auditing
                       standards; the standards applicable to financial audits contained in
                       Government Auditing Standards, issued by the Comptroller General of the
                       United States; and the Office of Management and Budget (OMB) Bulletin
                       No. 01-02, “Audit Requirements for Federal Financial Statements.”

                       In planning and performing our audit, we considered USAID’s internal
                       controls over financial reporting by obtaining an understanding of those
                       controls. We determined whether the internal controls have been placed in
                       operation, assessed control risk, and performed tests of controls to
                       determine our auditing procedures for the purpose of expressing an opinion
                       on the financial statements. We limited the internal control testing to those
                       necessary to achieve the objectives described in OMB Bulletin No. 01-02.
                       We did not test all internal controls relevant to the operating objectives as
                       broadly defined by the Federal Managers’ Financial Integrity Act of 1982
                       (such as those relevant to ensuring efficient operations).

                       The objectives of internal controls are to provide management with
                       reasonable, but not absolute, assurance that the following objectives are
                       met:

                       •      Transactions are properly recorded and accounted for to permit the
                              preparation of reliable financial reports and to maintain
                              accountability over assets.

                       •      Funds, property, and other assets are safeguarded against loss from
                              unauthorized acquisition, use, or disposition.

                       •      Transactions that have a material impact on the financial
                              statements, including those related to obligations and costs are
                              executed in compliance with laws and regulations.

                       The objective of our audit was not to provide assurance on internal controls;
                       consequently; we do not provide an opinion on those controls.




                                                                                                   15
     Our consideration of the internal controls over USAID’s financial reporting
     would not necessarily disclose all matters that might be reportable
     conditions. Under standards issued by the American Institute of Certified
     Public Accountants, reportable conditions are matters coming to our
     attention relating to significant deficiencies in the design or operation of the
     internal control that, in our judgement, could adversely affect USAID’s
     ability to record, process, summarize, and report financial data consistent
     with the assertions by management in the financial statements. Material
     weaknesses, on the other hand, are reportable conditions in which the design
     or operation of one or more of the internal control components does not
     reduce to a relatively low level the risk that misstatements in amounts that
     would be material in relation to the financial statement being audited may
     occur and not be detected within a timely period by employees in the
     normal course of performing their assigned functions.

     Neverthelessbecause of inherent limitations in internal controls,
     misstatements, losses, or noncompliance may occur and not be detected.
     However, we noted certain matters, discussed in the following paragraphs
     and accompanying schedules, involving the internal controls and their
     operation that we consider material weaknesses and/or reportable
     conditions. We have also identified material weaknesses and reportable
     conditions noted in prior Government Management and Reform Act
     (GMRA) audit reports that continued to exist during FY 2002 as “Repeat
     Findings.” (See the Federal Financial Management Improvement Act of
     1996 [FFMIA] section of the Compliance Report for additional internal
     control weaknesses.)


     The material weaknesses were that USAID needs to improve its processes
     for:

     1)      Allocating program expenses on its Statement of Net Costs .

     2)      Reconciling its Fund Balance with the U.S Treasury.

     3)      Calculating and reporting its Accounts Payable .

     4)      Recording and classifying Advances to Grantees and related
             Expenses (Repeat Finding).

     5)      Reviewing, analyzing, and deobligating its Unliquidated
             Obligations. (Repeat Finding)

     6)      Calculating Credit Program Allowances.

     7)      Recognizing, recording, and reporting its Accounts Receivable.
             (Repeat Finding)

16
                         The reportable conditions related to USAID’s need to:

                         1)       Establish a monthly closing procedure.

                         2)       Improve its controls and management of its property at overseas
                                  missions.

                         3)       Improve its system for preparing the Management’s Discussion
                                  and Analysis.

                         Material Weaknesses

                         USAID’s Process for Allocating Program
                         Expenses on its Statement of Net Costs Needs Improvement

                         The OIG determined that in some cases USAID’s current statement of net
                         costs may not reliably reflect expenses by responsibility segment because
                         USAID had not developed a process to consistently allocate program
                         expenses to its funding sources, strategic objectives, and related Agency
                         goals when it finances grants from multiple sources that are associated
                         with more than one goal. Therefore, USAID cannot be fully assured that
                         program expenses of about $384 million were allocated to the
                         corresponding Agency goals according to their original purpose or that the
                         recorded expense correlates to the activities from which they occurred.

                         SFFAS No. 4, dated July 13, 1995, states that reliable information on the
                         costs of Federal programs and activities are crucial for effective
                         management of government operations. This standard also requires that
                         “cost be accumulated by responsibility segments.” The accumulation is for
                         costs incurred within each responsibility segment and does not involve the
                         assignment or allocation of costs incurred by other supporting segments.
                         The reporting entity may have a centralized accounting system, but the
                         system should be capable of identifying costs within responsibility
                         segments.

                         USAID’s process for recording its Letter of Credit transactions is very
                         complex. Grants are often awarded to support multiple Agency goals and
                         are financed by one or more funding transactions. However, grantees only
                         report expense information at the grant level. USAID uses the pooling
                         method to process drawdown postings in the accounting system (Phoenix).
                         Therefore, both drawdowns and liquidations may not be reliable. The
                         OIG determined that drawdowns in Phoenix matched the information
                         maintained by the Department of Health and Human Services (DHHS)1.

1
        DHHS is the servicing agency that manages advances to USAID’s grantees through the Letter of Credit
System. Therefore, the Payment Management System is USAID’s subsidiary ledger for advances to grantees.

                                                                                                              17
                         However, DHHS uses the “first-in-first out” method to record the
                         drawdowns, which usually charges them against incorrect grants. Further,
                         since the grantees are only required to report expenses at the grant level,
                         DHHS had to develop a formula to record expenses against the numerous
                         funding sources within the related contract and grant agreements.

                         When USAID tries to match DHHS reported expenses against grant
                         agreements through an interface between USAID’s and DHHS’s systems,
                         the interface locates the grant and then uses the Common Account Number2
                         (CAN) to match a Budget Fiscal Year (BFY) under the grant agreements.
                         Initially, the system attempts to match the same fund with the same BFY as
                         identified by DHHS to record the expenses. If there is not match for the
                         same fund and BFY, the system looks for the same fund in any BFY to
                         record the expenses. Finally, if there is not match for the same fund in any
                         BFY, the system will record the expenses against the oldest BFY regardless
                         of the fund. This may lead to expenses crossing several agency goals on the
                         statement of net costs.

                         Expenses from the DHHS system are interfaced with USAID’s Phoenix
                         system. The interface identifies the Phoenix obligation number by using a
                         crosswalk that translates DHHS’s document numbers into Phoenix
                         obligation numbers. Using the obligation number, the interface will locate
                         the core grant or grant number within Phoenix. The interface then replaces
                         the obligation number with the DHHS CAN and locates the corresponding
                         BFY. The interface then verifies the accounting lines under the grant and
                         liquidates the obligations in the following order:

                         1.   If the accounting line does not have sufficient funds the interface will
                              liquidate the maximum portion from that accounting line and locate
                              the next accounting line with matching BFY and fund.

                         2.   If no matching BFY is available the interface will then locate an
                              accounting line under the grant with a matching Fund and liquidate
                              the expense against the oldest BFY.

                         3.   If no matching fund is available, the interface will liquidate the
                              expense against the earliest BFY regardless of the type of fund.

                         4.   If no unliquidated obligations are available under the grant the
                              transaction will be rejected for insufficient funds and would require
                              manual posting.




2
          The Common Account Number is an eleven-digit number composed of two separate parts. The first seven
numbers of the CAN identify the awarding agency. For non-DHHS accounts, the last four numbers of the CAN
identify the funding code/source as assigned by the awarding agency.

18
Further, the OIG determined that for the first four months of the fiscal year
DHHS provided expense information to USAID on hard copy reports.
The information on these reports was manually entered into the accounting
system by voucher examiners. USAID’s methodology was to record the
expenses against the oldest available funds regardless of the expense
allocation indicated on the Payment Management System (PMS) report.
Beginning in February 2002, expense information was transferred to the
USAID accounting system via an electronic interface. The methodology
was altered to a step down approach that would first attempt to record the
expenses against the DHHS allocated fiscal year and fund. Next, if
sufficient funding were not available, the expenses would be recorded
against the fund with an available balance in any fiscal year. Finally, if
sufficient funding were not available under the two steps above, the
expenses would be posted against any available funding source beginning
with the oldest fiscal year.

We sampled and reviewed the expense liquidations as two separate
methodologiesthe manual process and the automated process. We
selected transactions processed through each of the methodologies. Based
on our review of the manual processing methodology, we noted that
USAID did not consistently record the expenses against the oldest
available funds and the corresponding Agency goals. Additionally, we
noted that credit amounts were recorded to one funding source. Because
credit amounts usually relate to expenses of previous quarters, it would
have been more reasonable to apply the credits to the previously recorded
expenses. For example, for one manual credit transaction reviewed, about
$3.2 million was recorded as expense against USAID goal number five,
causing a reduction of $3.2 million in the unliquidated balance of this
goal. However, the original $3.2 million transaction was allocated to all
USAID goals. Inaccurate postings in the manual process usually have a
ripple effect on the transactions processed throughout the year because the
funds that are liquidated through the manual postings are no longer
available for subsequent liquidations.

The OIG determined that USAID’s automated process followed the
established methodology to record expenses against the corresponding
Agency goals. However, the system did not give preference to similar
funds. For example, the system recorded expenses related to development
assistance (DV) funds and expenses in the development assistance funds
for population (DV-POP) as different funding sources.

Because USAID’s process for allocating program expenses on its statement
of net costs needs improvement and modifications are needed in its
allocation methodology, we are making the following recommendation to
USAID management:




                                                                          19
                                 Recommendation No. 1: We recommend that the Chief
                                 Financial Officer establish requirements to:

                                   1.1    Modify the manual expense distribution methodology,
                                          whenever there is no specific fund cite, to match advance
                                          liquidation expense reported by U.S. Department of
                                          Health and Human Services.

                                   1.2    Ensure that USAID’s automated posting process uses the
                                          Department of Health and Human Service’s posting
                                          methodology.


                         USAID’s Process for Reconciling Its Fund
                         Balance with the U.S. Treasury Needs Improvement.

                         The OIG determined that USAID has not implemented effective internal
                         controls to ensure that its fund balance with Treasury is reconciled in a
                         timely manner. While USAID has improved in this area, we identified
                         several continuing problems that hindered its ability to reconcile
                         differences with the fund balance account. Specifically, USAID’s Office
                         of Financial Management and the overseas missions did not consistently
                         reconcileresearch and resolvedifferences identified between the
                         records of USAID, the State Department’s U.S. Disbursement Office’s,
                         and the U.S. Treasury. In fiscal year 2002, USAID’s Office of Financial
                         Management made unsupported adjustments of about $45 million net
                         ($203 million in absolute dollar value) to bring its cash balance in
                         agreement with Treasury’s balance. According to USAID’s Office of
                         Financial Management officials, this adjustment was made because it is
                         necessary for USAID to bring its fund balance in agreement with the U.S.
                         Treasury for the yearend closing statement and the annual financial
                         statement.

                         The U.S. Department of Treasury’s guidance3 for reconciling fund
                         balances requires that Federal agencies research and resolves differences
                         reported by the U.S. Treasury on a monthly basis. Agencies must also
                         resolve all differences between the balances reported in their general
                         ledger fund balance with the U.S. Treasury accounts and the balances
                         reported by the U.S. Treasury. This guidance stipulates three months as a
                         reasonable period for clearing the differences.

                         The reconciliation process contains two steps: (1) identifying the
                         differences between USAID’s records and the U.S. Department of
                         Treasury’s records and (2) researching and resolving these differences.

3
       Fund Balance with Treasury Reconciliation Procedures, A Supplement to the Treasury Financial Manual,
ITFM 2-5100, August 1999.

20
                         Some of the differences are timing differences that will be eliminated with
                         the passage of time, while other differences are accounting and posting
                         errors that must be corrected. The U.S. Treasury reconciliation procedures
                         state that an agency may not arbitrarily adjust its Fund Balance with the
                         U.S. Treasury account. The procedures further state that an agency can
                         adjust its Fund Balance with the U.S. Treasury account balance only after
                         clearly establishing the causes for any errors and properly correcting those
                         errors. In addition, the procedures state that an agency should document
                         “month cleared” (the accounting month that the discrepancy was
                         adjusted), accounting periods, required explanations, and brief narratives
                         that disclose the cause of the discrepancy. USAID did not consistently
                         follow the first and second steps of the reconciliation process.

                         USAID did not completely reconcile its fund balance with Treasury and
                         research and resolve a difference of about $239 million in its Washington
                         appropriation accounts for the year ended September 30, 2002.
                         Furthermore, according to USAID, as of mid-November 2002, it did not
                         research and resolve the operating expense appropriation differences.

                         This occurred because USAID had not established a process to close the
                         monthly accounting periods in its accounting system. This lack of
                         monthly closing creates differences between USAID’s monthly
                         transaction totals and the U. S. Treasury’s monthly records. According to
                         USAID, the accounting periods in its accounting system remained open
                         throughout the subsequent periods because not all financial activities were
                         entered into the accounting system in a timely manner. The Joint
                         Financial Management Improvement Program (JFMIP)4 “Core Financial
                         System Requirements” require Federal agencies to close accounting
                         periods and prohibit subsequent postings to the closed periods.

                         Further, some of these differences resulted from overseas transactions that
                         were not reconciled because USAID did not implement the necessary
                         reconciliation procedures to analyze, research, and resolve the outstanding
                         reconciling items reported by its missions. As a result, USAID’s Office of
                         Financial Management made unsupported year-end adjustments of about
                         $45 million net ($203 million in absolute dollar value) to bring its
                         September 30, 2002, cash balance in agreement with Treasury's balance.
                         Because USAID needs to continue researching and resolving all
                         outstanding reconciling items, we are making the following
                         recommendation:




4
         FFMIA requires that agencies implement and maintain financial management systems that substantially
comply with federal financial management systems requirements. These system requirements are detailed in the
Financial Management Systems Requirements series issued by JFMIP and OMB Circular A-127.

                                                                                                               21
     Recommendation No. 2: We recommend that the Chief Financial
     Officer:

     2.1     Provide detailed guidelines to overseas missions for writing off
             old reconciling items. These guidelines should include the
             reconciliation steps that should be completed before USAID
             missions request write-offs.

     2.2     Reconcile the mission adjustment account in the general ledger
             to the cumulative amounts in the mission ledgers and resolve
             differences between the general ledger and the mission ledgers.


     USAID’s Internal Controls over Its Accounts
     Payable Process Need Improvement (Repeat Finding)

     The OIG determined that USAID’s internal controls over its accounts
     payable process needs improvement. Although progress has been made, we
     noted that amounts reported for a significant portion of the accounts payable
     via the Accrual Reporting System (ARS) used by USAID/Washington and
     via Mission Accounting and Control System (MACS) by its missions were
     unsupported by financial documentation. In our FY 2001 GMRA audit, this
     problem related only to USAID missions. We recommended that USAID
     Office of Financial Management develop standardized documentation
     requirements for its missions and coordinating with its Office of
     Procurement and issue detailed guidance for missions to identify obligations
     that are available for deobligation. USAID has fully implemented this
     recommendation.

     However, after USAID/Washington implemented the ARS, similar
     problems were identified with the USAID/Washington’s accounts payable.
     This occurred because USAID program managers have not developed an
     effective process for estimating accounts payable. As a result, USAID’s
     fiscal year 2002 expenses were overstated by about $236 million ($52
     million from its missions and $184 million for Washington). USAID
     management recorded an adjustment for the $236 million to present a more
     reliable accounts payable balance on its financial statements at September
     30, 2002.

     Statement of Federal Financial Accounting Standards (SFFAS) No. 1
     requires that when an entity accepts title to goods, whether the goods are
     delivered or in transit, the entity should recognize a liability for the unpaid
     amount of the goods. If invoices for the goods are not available when
     financial statements are prepared, the amounts owed should be estimated.
     Moreover, USAID’s Automated Directive System 630.3.2.4 requires that in
     addition to the sequential schedule/voucher files maintained by fiscal year,
     paying offices must maintain individual contract obligation and payment

22
                          records in sufficient detail so that the financial status of each contract can be
                          readily determined and used in deciding whether payment of a given
                          invoice should be approved.

                          The OIG found that amounts calculated by the Cognizant Technical
                          Officers via the ARS process were not supported by available financial
                          documentation, rationale for calculations, or status reports that reflect an
                          assessment of the spending for the project or activity. Moreover, The OIG
                          found that several accounts payable amounts were recorded by USAID for
                          the entire balance of the related obligations, with expired performance
                          periods. These obligations either had no financial activity in more than
                          one year or had no activity since they were established. The OIG
                          determined that USAID had not conducted the necessary research to
                          determine if the obligations and corresponding accounts payable were
                          necessary.

                          These conditions resulted because the efforts of USAID were hampered by
                          the inefficiencies of the Mission Accounting and Control System
                          (MACS)5, and its inability to group various funding instruments of the
                          same project or program. However, some USAID Cognizant Technical
                          Officers had not documented their calculations, their communications with
                          contractors and grantees, their analysis of project expense burn rates, or
                          their review of the necessary accounting reports.

                          Furthermore, The OIG determined that USAID did not close several
                          obligations and calculated accounts payable for the entire remaining
                          balance because they have not received disbursement data or the final
                          vouchers from the contractors or grantees. Consequently, the FY 2002
                          accounts payable reported by USAID were overstated by about $236
                          million. USAID subsequently made an adjustment to record the $236
                          million to present a more reliable accounts payable balance in its FY 2002
                          financial statements. However, because of the recurrence of this internal
                          control weakness, we are restating the following recommendation to
                          USAID management:

                              Recommendation No 3: We recommend that USAID’s Chief
                              Financial Officer coordinate with the Office of Procurement to:

                                   3.1     Develop a standardized documentation requirement for
                                           estimating accounts payable in Washington and at its
                                           missions on a timely basis.




        5
                  MACS is an activity-based system for recording budget allowance, projects, operating expense,
and accounting transactions at USAID’s missions.

                                                                                                                  23
             3.2        Issue detailed guidance and instructions for reviewing
                        and reporting to the Office of Procurement those
                        obligations that are available for deobligation.

             3.3        Issue detailed guidance requiring its Cognizant
                        Technical Officers to maintain adequate documentation
                        supporting the accounts payable as required by the
                        Automated Directive System.


     USAID’s Process for Reconciling and Classifying
     Advances to Grantees Need Improvement (Repeat Finding)

     As of September 30, 2002, USAID had not recorded about $88 million in
     expenses related to advance liquidations submitted by grantees. Progress
     has been made in this area. Our FY 2001 GMRA audit identified about
     $155 million in expenses related to advances that were not recorded by
     USAID. However, this condition continues to occur because USAID does
     not have a worldwide integrated financial management system that
     includes procurement and assistance data. Therefore, obligations
     established for advances that are managed by DHHS must be manually
     entered into the Payment Management System (PMS). Nevertheless,
     USAID has recognized liquidations for about $66 million of the $88
     million through its Accrual Reporting System. The remaining $22 million
     was not recorded as expense or an accrual made by USAID.
     Consequently, the obligations related to the $88 million had not been
     entered into the PMS and the expenses were not recognized and reported
     by DHHS. USAID subsequently made an adjustment to record the $22
     million as expenses.

     General Accounting Office (GAO) “Standards for Internal Controls in the
     Federal Government” requires that transactions and other significant events
     should be promptly recorded and properly classified. This guidance further
     states that transactions must be promptly recorded if pertinent information is
     to maintain its relevance and value to management in controlling operations
     and making decisions.

     This applies to:

     •       The entire process or life cycle of a transaction or event and includes
             the initiation and authorization.

     •       All aspects of the transactions while in process.

     •       Its final classification in summary records.




24
Obligations for grant agreements and/or modifications must be entered
into DHHS’s Payment Management System so that grantees can report
advance liquidation expenses related to the corresponding obligations. As
of September 30, 2002, USAID had not recorded in the Payment
Management System, approximately 105 grant agreements and/or
modifications with a net value of about $253 million. USAID has since
recorded 78 of the 105 grant agreements and/or modification valued at
$112 million. Therefore, at the time of our review, USAID still had about
$144 million that was not recorded in the Payment Management System.
This occurred because USAID does not have a worldwide integrated
financial management system that links its accounting, procurement, and
assistance systems as well as all other activities performed by USAID.
Additionally, copies of new grants and/or modifications issued by
USAID’s Office of Procurement were not submitted to the Office of
Financial Management in a timely manner.

One USAID official stated that ten business days would be a reasonable
amount of time for the Contracting Officers to submit grants and/or
modifications (needing to be entered into the Payment Management
System) to the Office of Financial Management and that ten business days
would also be a reasonable amount of time for the Office of Financial
Management to record the grants and/or modifications into the DHHS
Payment Management System. Because USAID does not have an
integrated financial management system, there is no assurance that all
obligations managed by DHHS established for USAID’s grants were
submitted to USAID’s Office of Financial Management, Cash
Management and Payment Division.

Proper classification of information on transactions and events refers to
the organization and format of information on summary records from
which reports and statements are prepared. Because USAID does not have
a worldwide integrated financial management system that includes
procurement and assistance data, this internal control deficiency continues
to exist. Therefore, we are restating the following recommendations to
USAID management:

Recommendation No. 4: We recommend that the USAID Chief
Financial Officer in coordination with the Office of Procurement,
establish procedures to ensure that all new grant agreements and/or
modifications are submitted to its Cash Management and Payment
Division within ten business days after their execution.

Recommendation No. 5: We recommend that the USAID Chief
Financial Officer establish procedures for the Cash Management and
Payment Division to enter all new grants and/or modifications in the
Payment Management System within ten business days after receiving
them.

                                                                        25
     Unliquidated Obligations Were Not Always
     Analyzed and Deobligated as Necessary (Repeat Finding)

     USAID records showed unliquidated obligations that may no longer be
     needed for their original obligation purpose. This occurred because, as of
     September 30, 2002, USAID had not completed its process for reviewing,
     analyzing, and deobligating unneeded obligations. As a result, as of
     September 30, 2002, there still remain about $153 million in unliquidated
     obligations that had no payment activity against them for more than one
     year. This is a reduction from the $186 million in unliquidated obligations
     that our FY 2001 GMRA audit identified. The $153 million in unliquidated
     obligations, identified by our FY 2002 GMRA audit, may no longer be
     needed for its original obligation purpose.

     USAID’s Automated Directive System (ADS) 621 states, “As part of the
     annual budget process, Assistant Administrators, independent Office
     directors, and Mission directors must certify whether unexpended balances
     are necessary for on-going programs.” The directive further requires that in
     conducting reviews of obligations to identify funds that must be
     deobligated, obligation managers and others involved in the review process
     should consider circumstances that could result in excessive or unneeded
     obligation balances. According to ADS 621, where there is an unobligated
     balance that has remained unchanged for 12 months or more and there is no
     evidence of receipt of services/goods during that same 12-month period, the
     situation may reflect that remaining balances are no longer needed.

     As of September 30, 2002, USAID’s internal control process as it relates
     to the management of unliquidated obligations needs improvement.
     Specifically, there were about $153 million in unliquidated obligations
     that had no activity during FY 2002 and may not be needed for the
     original obligation purpose. USAID is in the process of reviewing the
     unliquidated obligations through its Business Transformation Executive
     Committee (BTEC) working group led by the Office of Financial
     Management. The working group reviewed 576 awards that ended on or
     before September 30, 2000 and had unliquidated obligations of $100,000
     or more. As a result of the group’s review, USAID deobligated about
     $100 million of the reported unliquidated obligations related to the 576
     awards. We have also seen improvements in USAID’s missions in their
     efforts to reduce their old unliquidated obligations
     According to USAID officials, this occurred because USAID’s current
     disbursement process does not match contractor or grantee-reported
     expenses and the subsequent payments with the specific fund cite that gave
     rise to those payments. Consequently, unliquidated obligations may be
     carried forward each year even after the payments that would have fully
     depleted them were made by USAID.




26
USAID has implemented an Accrual Reporting System to require review
and approval of a system-generated accounts payable based on the
unliquidated obligations. If this system is maintained as intended, it should
enable USAID to routinely identify obligations that could be deobligated.
Because USAID is in the process of reviewing the unliquidated obligations
through its working group, and we have also seen improvements in the
missions to reduce their old unliquidated obligations, we are not including a
recommendation for corrective action by USAID management.


USAID’s Process for Recognizing and Reporting
Its Accounts Receivable Needs Improvement (Repeat Finding)

As of September 30, 2002, USAID continues to lack an integrated financial
management system with the ability to account for its worldwide accounts
receivable. This internal control weakness was reported in our previous
GMRA reports. Because this systemic weakness continues to exist, we
have included it as a material weakness in this GMRA audit report.
Because USAID lacked a worldwide integrated system and had not
established and implemented policies and procedures for its missions and
the Office of Procurement to immediately recognize accounts receivable,
USAID had to rely on data calls to its missions to determine the year-end
accounts receivable balance. Therefore, USAID has no assurance that the
amount reported for accounts receivable in its FY 2002 financial statements
represents all receivables due to USAID. USAID management has
contended that accounts receivable is not material to the financial
statements. We do not believe that this amount would cause a material
misstatement to the financial statements. During our FY 2003 GMRA
audit, we will expand our audit work in this area.

SFFAS No. 1 requires that accounts receivable be recognized (recorded)
when a claim to cash or other assets has been established. The
establishment of accounts receivable cannot occur on a timely basis unless
there are adequate procedures for recognizing and reporting them at the end
of each accounting period.

Currently, USAID records accounts receivable after the missions and the
Office of Procurement notify the Office of Financial Management that
employees, vendors, contractors, and grantees owe funds to USAID. This
notification to the Office of Financial Management occurs when the
UHFHLYDEOHVDUHVLJQLILFDQWO\SDVWGXHUDQJLQJIURPWRGD\V
Because USAID has not yet developed an integrated financial management
system that would allow for the immediate recognition of accounts
receivable, this systemic problem continues to exist. Therefore, we are
restating the following recommendations to the USAID Office of Financial
Management:



                                                                           27
        Recommendation No. 6: We recommend that the USAID Chief
        Financial Officer develop and implement a system for the
        immediate recognition and reporting of all accounts receivable that
        are due to USAID at the end of each accounting period.

        Recommendation No. 7: We recommend that the USAID Chief
        Financial Officer, in coordination with the Office of Procurement
        develop and implement procedures to ensure that the necessary
        information is forwarded to the Office of Financial Management for
        the establishment of accounts receivable whenever agreement is
        reached with contractors and grantees that funds are owed to
        USAID.


     USAID’s Process for Calculating Its
     Credit Program Allowances Needs Improvement

     USAID had a significant decrease in the net loan receivable balances for
     fiscal year 2002. The reduction was caused by a significant increase in the
     FY 2002 allowance amounts from what was calculated in FY 2001. For
     fiscal year 2002, USAID calculated and reported about $6.8 billion in
     allowances for its credit programs. Of this amount, about $5.9 billion was
     for the Direct Loan program and about $947 million for the Urban
     Environment loan guarantee program. These allowances were
     significantly higher than the fiscal year 2001 calculated allowance
     amounts of about $4.5 billion. We requested that USAID’s Loan
     Management Division (LMD) provide us with reasons for the significant
     increases in the allowance amounts for FY 2002. We also requested that
     the Division recalculate the allowance for fiscal year 2001 and provide
     additional disclosure in the fiscal year 2002 financial statements for the
     $2.3 billion increase in the allowance calculation between FY 2001 and
     FY 2002.

     As a result of our request, LMD had additional discussions with OMB
     about the formula and rates used in the calculation of the allowances for
     USAID’s direct loan and loan guarantee liabilities. Based upon these
     discussions, LMD discovered that OMB did not provide the information
     required to correctly calculate the allowances. Further, USAID staff who
     knew that OMB’s formula and rate changes caused significant decreases
     in the fiscal year 2002 subsidy expenses did not inform LMD of those
     changes. However, LMD was aware that OMB had changed its subsidy
     formula and methodologies in fiscal year 2001 but LMD did not know the
     details of the changes, nor had it assess the impact of the changes on the
     yearend calculation of allowances for the guaranteed loans. The original
     allowance calculation for fiscal year 2002 resulted in a significant increase
     over the fiscal year 2001 calculated allowances.



28
Using the revised OMB formula and rates, LMD correctly recalculated the
fiscal year 2002 allowances and loan guarantee liability amounts. This
resulted in a decrease of about $2.8 billion in the direct loan allowance and
a decrease of about $619 million in the loan guarantee liability for a net
change of about $3.5 billion in amounts due to the U.S Treasury for fiscal
year 2002.

GAO’s Internal Control Standards state that pertinent information should
be identified, captured, and distributed so that individuals can perform
their duties efficiently. Further, effective communication is necessary and
should occur across the organization. The standards further state that, in
addition to internal communications, management should ensure that
adequate means of communication exist with external parties who may
have a significant impact on the Agency achieving its goals. Finally, the
internal control standards require management at the functional or activity
level to compare actual results and analyze significant differences.

Because USAID had not implemented an effective process for calculating
its credit program allowance for fiscal year 2002a process that would
have resulted in a reasonable presentation of the net credit program
balances, we are including the following recommendation to USAID
management:

Recommendation No. 8: We recommend that USAID’s Chief
Financial Officer establish procedures to:

8.1    Inform all credit program personnel of changes in the
       government policies and procedures that may have an impact
       on its credit and loan programs.

8.2    Require an assessment of the impact on the financial
       information presented in internal and external reports.

8.3    Conduct second-party reviews of final credit program and loan
       balance amounts at the end of the fiscal year before the annual
       financial statements are prepared.


Reportable Conditions

USAID’s Monthly and Year-end
Closing Procedure Needs Improvement

USAID’s financial statements, accompanying footnotes, and worksheets
were difficult to audit. On October 24, 2002, the Office of Inspector
General received the unadjusted trial balance for fiscal year 2002. USAID
informed us that this was the date the general ledger was officially closed.

                                                                          29
     However, the general ledger was not closed on that date. Additionally,
     USAID has not implemented the manual process of closing the general
     ledger that would close the accounting period; rather, it has established a
     system for only a few employees to make changes to the general ledger.

     According to JFMIP, “General Ledger Management Function,” with
     functional management of the general ledger, the system should close
     accounting periods and prohibit subsequent postings to the closed periods.
     The closing of an accounting period provides the Agency with the
     capability to automatically determine an accounting period’s opening
     balances based on the prior accounting period’s closing balances, without
     user intervention or adjustment.

     Since October 24, 2002, we have received unadjusted trial balances dated
     November 15, 2002, November 17, 2002, and finally November 27, 2002.
     Our analysis of these trial balances showed that there were many changes
     to general ledger accounts at each of the above dates. Also, because the
     system was not consistently closed on a monthly basis, expenses recorded
     on November 18, 2002, were for transactions made in prior accounting
     periods as early as October 2001. The FY 2002 adjusting journal entries
     should have supported the changes in the general ledger. However, to date
     the changes in USAID’s system have not been documented. In addition,
     we were provided footnotes and adjusting journal entries in intervals,
     which made it difficult to follow all the changes that were made to the
     information in USAID’s accounting system.

     According to the USAID official, USAID did not close its general ledger
     on a monthly basis. This decision was made by management because not
     all financial data was entered in the accounting system in a timely manner.
     Because all prior accounting periods remained open throughout the fiscal
     year, USAID employees were able to make changes and adjustments at
     any given time. These adjustments could be officially made through
     authorized journal vouchers, or they could have been made unofficially to
     transactions without authorization and without an audit trail.

     Because USAID did not close its general ledger monthly the information
     on the Standard Form (SF)-224, Statement of Transactions is not readily
     identified to a specific accounting period. In addition, the SF-6653,
     Undisbursed Appropriation Account Ledger cannot be readily reconciled
     with USAID’s information. Consequently, many year-end adjustments
     and unsupported general ledger changes and adjustments were needed.
     Therefore, we are making the following recommendation:




30
Recommendation No. 9: We recommend that the Chief Financial
Officer establish written procedures to:

9.1    Close monthly accounting periods on the dates established by
       the U.S. Treasury and prepare adjusting journal entries for any
       changes, corrections, or adjustments made after an accounting
       periods is closed.

9.2    Establish final dates for entering transactions into the general
       ledger before monthly closings. The final dates should be
       provided to all employees responsible for entering transactions
       that may affect the general ledger.


USAID’s Controls and Management of Certain
Computer Equipment at Its Missions Need Improvement

The OIG determined that USAID’s controls and management of certain
computer equipment at its missions needs improvement. During our fiscal
year 2002 GMRA audit at selected missions, the OIG determined that 6 of
the 13 selected missions had two pieces of computer equipment: Reduced
Instruction Set Computer (RISC) System 6000 R-20-Lan Server, with a
cost of $112,507 each, and an IBM subsystem cabinet with a cost of
$42,844 each (total cost of $155,351). Both were used for the New
Management System. The two pieces of computer equipment were
purchased in fiscal year 1996 and have been fully depreciated. The
computer equipment was included in the inventory of non-expendable
property reported by those missions. Another mission had the items on
their property inventory, but the items could not be located. Furthermore,
other missions, not included in our sample, also reported the computer
equipment on the data call from Washington as part of their non-
expendable property.

USAID Automated Directives System 629.3.5, “Disposal of Capitalized
PP&E,” requires that Property, Plant and Equipment (PP&E) that no
longer provides service because it has suffered damage, become obsolete
in advance of expectations, or is identified as excess must be removed
from the general ledger accounts, retired, and removed from service. In
addition, the value of such property and the accumulated depreciation
must be removed from the financial records.

The computer equipment was included in inventory and non-expendable
property because USAID did not inform its missions to segregate and
dispose of non-expendable property that were no longer needed. As a
result, USAID fiscal year 2002 PP&E and the related depreciation were
overstated by about $932,106. Furthermore, because other missions that
were not included in our audit sample had the computer equipment in their

                                                                        31
                         inventory and included them in their data call, the related general ledger
                         account was overstated. Therefore, we are making the following
                         recommendation:

                         Recommendation No. 10: We recommend that the Chief Financial
                         Officer coordinate with the Office of Overseas Management Support
                         and establish a process for all missions to dispose of and remove from
                         their respective non-expendable property inventories and financial
                         records equipment that is no longer needed.


                         USAID’s System for Preparing Management’s
                         Discussion and Analysis (MD&A) Needs Improvement

                         OMB Bulletin No. 01-02 requires the OIG to (a) obtain an understanding
                         of the components of internal controls relating to the existence6 and
                         completeness7 assertions relevant to the performance measures included in
                         the MD&A and (b) report on those internal controls that have not been
                         properly designed and placed in operation.

                         The MD&A is a narrative overview, prepared by management, which
                         describes the reporting entity and its mission, activities, program and
                         financial results, and financial condition. The Statement of Federal
                         Financial Accounting Standards (SFFAS) No. 15, Management's
                         Discussion and Analysis, requires the MD&A to be included in each
                         annual financial statement as required supplementary information. OMB
                         Bulletin No. 01-09 provides additional guidance for preparing the MD&A.

                         Based on a limited review of USAID's system to collect and report
                         performance information in the draft MD&A, the OIG identified the
                         following weaknesses:

                         •        USAID's current system does not allow for reporting fiscal year
                                  2002 performance results by USAID's operating units until fiscal
                                  year 2003. The majority of the performance information contained
                                  in the draft fiscal year 2002 MD&A was based on Annual Reports
                                  submitted by USAID operating units in Spring 2002, reporting on
                                  performance data from fiscal year 2001 or earlier. The OIG
                                  reported this deficiency in timeliness in prior years. There is an
                                  outstanding OIG recommendation8 calling on USAID to establish
                                  procedures to ensure that (1) operating units submit fiscal year

6
         This management assertion deals with whether information included in the MD&A actually occurred
during the given period.
7
         This management assertion deals with whether all performance results which should be presented have
been included.
8
         From Reports on USAID's Financial Statements, Internal Controls, and Compliance for Fiscal Years 1997
and 1996, Audit Report No. 0-000-98-001-F, dated March 2, 1998.

32
       performance results in time for MD&A reporting and (2) the
       results that are reported in the MD&A section of USAID's
       financial statements and Annual Performance Report relate to the
       fiscal year under review.

•      According to OMB Circular A-11, Section 200, a final 2002
       performance plan should have been sent to Congress by April
       2001. USAID did not prepare an Annual Performance Plan for
       fiscal year 2002. Instead, it issued one for fiscal year 2003 in
       August 2002 and noted that the plan would also apply retroactively
       to fiscal year 2002. As a result, except for a few cases, the draft
       MD&A did not contain a clear picture of USAID's planned
       performance goals for fiscal year 2002 and therefore did not
       include a comparison of planned goals with actual results for fiscal
       year 2002, as required by OMB Bulletin No. 01-09.

•      The draft MD&A included the USAID operating units' self-
       assessments of progress (pertaining, as explained above, to years
       prior to 2002) toward meeting certain strategic objectives. Several
       OIG audits at selected USAID operating units over the past year
       have identified deficiencies in operating unit performance
       measurement systems. These deficiencies−such as not performing
       required data quality assessments−could result in reporting
       unreliable performance information or incorrectly assessing
       progress toward meeting certain strategic objectives. According to
       USAID, approximately 1,300 employees have been trained in
       performance measurement and strategic planning during the last
       year and one-half. USAID management believes this training will
       improve the operating units' performance reporting.

•      Except for a few cases, the draft MD&A did not contain financial
       information to relate costs to results. There was not a clear linkage
       to cost categories featured in the Statement of Net Costs.
       Therefore, the cost efficiency or cost effectiveness of obtaining
       results could not be determined.

In conclusion, as the OIG reported in previous years, USAID needs to
improve its system for collecting, summarizing, and preparing
performance information included in the MD&A. Specifically, USAID
needs to revise its current system so that the MD&A contains a clear
picture of USAID's planned performance goals/targets for the current year
and a comparison of these goals with actual results for the current year.
We did not include a recommendation in this report regarding the MD&A,
as we intend to address the larger issue of performance reporting in a
separate audit report.



                                                                         33
     This report is intended solely for the information and use of the
     management of USAID, OMB and Congress, and is not intended to be and
     should not be used by anyone other than these specified parties. However,
     this restriction is not intended to limit the distribution of this report, which is
     a matter of public record.



     Bruce N. Crandlemire /s/

     Office of Inspector General
     January 24, 2003




34
                    Independent Auditor’s Report on Compliance
                            With Laws and Regulations

                         Did USAID comply with laws and regulations that could have a
                         direct and material effect on the financial statements, and with any
                         other applicable laws and regulations?

                         We have audited the financial statements of USAID for the fiscal year
                         ended September 30, 2002 and have issued our report thereon. We
                         conducted the audit in accordance with generally accepted auditing
                         standards; the standards applicable to financial audits contained in
                         Government Auditing Standards, issued by the Comptroller General of the
                         United States; and the Office of Management and Budget (OMB) Bulletin
                         No. 01-02, “Audit Requirements for Federal Financial Statements.”

                         The management of USAID is responsible for complying with laws and
                         regulations applicable to USAID. As part of obtaining reasonable assurance
                         about whether USAID’s financial statements are free of material
                         misstatement, we performed tests of USAID’s compliance with certain
                         provisions of laws and regulations, noncompliance with which could have a
                         direct and material effect on the determination of financial statement
                         amounts. Also, we tested certain other laws and regulations specified in
                         OMB Bulletin No. 01-02, including the requirements contained in the
                         Federal Financial Management Improvement Act (FFMIA) of 1996, the
                         Computer Security Act of 1987, and the Debt Collection and Improvement
                         Act of 1996. We limited our tests of compliance to these provisions and we
                         did not test compliance with all laws and regulations applicable to USAID.

                         The results of our tests of compliance with laws and regulations described in
                         the preceding paragraph exclusive to FFMIA9 disclosed instances of
                         noncompliance with laws and regulations that are required to be reported
                         under Government Auditing Standards and OMB Bulletin No. 01-02.

                         Under FFMIA, we are required to report whether USAID’s financial
                         management systems substantially comply with the Federal financial
                         management systems requirements, applicable Federal accounting
                         standards, and the United States Government Standard General Ledger at
                         the transaction level. To meet this requirement, we performed tests of
                         compliance with FFMIA section 803 (a) requirements.


        9
                  FFMIA requires reporting on whether an agency’s financial management systems substantially
comply with the FFMIA section 803 (a) requirements relating to Federal financial management systems
requirements, applicable Federal accounting standards, and the United States Government Standard General Ledger
published by the Department of the Treasury. FFMIA imposes additional reporting requirements when tests
disclose instances in which agency systems do not substantially comply with the foregoing requirements.

                                                                                                             35
                         The results of our tests disclosed instances, described below, in which
                         USAID's financial management systems did not substantially comply with
                         Federal financial management system requirements, Federal Accounting
                         Standards, and the U.S. Standard General Ledger at the transaction level.

                         Nature, Extent, and
                         Causes of Noncompliance

                         FFMIA was passed to improve Federal financial management by ensuring
                         that Federal financial management systems provide reliable, consistent,
                         financial data from year to year. The Act requires each agency to
                         implement and maintain financial management systems that comply
                         substantially with:

                         •       Federal financial management system requirements.

                         •       Applicable Federal Accounting Standards.

                         •       The United States Government Standard General Ledger at the
                                 transaction level.

                         Office of Management and Budget Circular A-127, “Financial
                         Management Systems,” prescribes policies and standards for agencies to
                         follow in developing, operating, evaluating, and reporting on financial
                         management systems. Section 7 of the Circular identifies which
                         requirements Federal financial systems should meet. In January 2001, the
                         Office of Management and Budget issued “Revised Guidance for the
                         Federal Financial Management Improvement Act” to supplementing
                         Office of Management and Budget Circular No. A-127 to help determine
                         whether financial systems substantially comply with FFMIA requirements.
                         That guidance identifies various requirements that an agency must meet,
                         including those concerning Joint Financial Management Improvement
                         Program systems.

                         Since 1997, the Office of the Inspector General has reported that USAID’s
                         financial management systems did not substantially comply with system
                         requirements under FFMIA.10 In the past, the reason for USAID's
                         noncompliance was that the agency's core financial management system11
                         did not operate effectively. Therefore, USAID had to rely on a
                         combination of outdated, legacy systems; informal, unofficial records; and

        10
                   Reports on USAID’s Consolidated Financial Statements, Internal Controls, and Compliance for
Fiscal Year 2000 (Audit Report No. 0-000-01-006-F, February 26, 2001); Reports on USAID’s Consolidated
Financial Statements, Internal Controls, and Compliance for Fiscal Year 1999 (Audit Report No. 0-000-00-006-F,
February 18, 2000); and Audit of the Extent to Which USAID’s Financial Management System Meets Requirements
Identified in the Federal Financial Management Improvement Act of 1996 (Audit Report No. A-000-98-003-P,
March 2, 1998).
         11
                   Called the New Management System

36
a core financial management system—which suffered from technical and
operational problems.

USAID has been pursuing an effort to modernize the Agency's systems
and meet FFMIA requirements. Specifically, in December 2000, USAID
implemented a new core financial system in Washington. In addition,
during fiscal years 2001 and 2002, USAID completed efforts to upgrade or
interface five major systems (which process transactions outside of the
core financial system) to the core system. Those systems were:

1.     Acquisition and Assistance System (procurement system),
2.     National Finance Center Payroll System (payroll system),
3.     Management Accounting and Control System,
4.     Letter of credit grant processing system, and
5.     Loan processing system.

Federal Financial Management System Requirements

According to FFMIA, Federal agencies must implement and maintain
financial management systems that comply substantially with Federal
financial management system requirements. These requirements state that
Federal agencies shall ensure that security over financial management
information systems is in accordance with OMB Circular A-130,
Appendix 3. Further, the guidance states that users should have on-line
access to the status of funds or receive daily reports on the status of funds
in order to perform analysis or decision-making.

Although, USAID has enhanced its financial systems over the past two
years, further improvements are needed to:

•      Integrate the systems to further strengthen funds control.

•      Strengthen computer security controls.

•      Further enhance reporting capabilities.

As a result, USAID's financial system may not provide users with
complete, accurate, timely financial information needed for
decision-making purposes. The following paragraphs discuss some of the
progress USAID made during fiscal year 2002 as well as some of the
problems that continued to exist.

Funds Control - According to Office of Management and Budget
Circular No. A-11, Preparation, Submission, and Execution of the Budget,
each Federal agency is responsible for establishing a funds control system
that will ensure that the agency does not obligate or expend funds in
excess of those appropriated or apportioned. In addition, the Circular

                                                                          37
                          states that at year-end multi-year funds not obligated that remain available
                          must be reapportioned in the upcoming fiscal year.

                          In February 2002, the OIG reported two problems that USAID’s core
                          financial system had with respect to funds control. USAID was aware of
                          these problems and took some action to correct these deficiencies, as
                          described below.

                          First, the OIG reported that USAID’s system did not properly display the
                          funding available after appropriation transfer transactions.12 Although the
                          system prohibited a user from obligating more funds than apportioned, it
                          displayed an incorrect available amount at the appropriation level after the
                          users processed appropriation transfers. In March 2002, USAID applied a
                          fix to its core financial system, correcting the calculation of available
                          amount after an appropriation transfer, thereby correcting this problem.

                          Second, OIG reported that USAID’s system did not roll up multi-year
                          unobligated balances, allowing the funds to remain available for
                          obligation. In June 2002, USAID upgraded its system to correct the roll-
                          up of unobligated balances at year-end. This upgrade provided the
                          Agency with a means to automatically roll up uncommitted funds at any
                          point during the fiscal year. The upgrade also included new accounting
                          events13 that allowed the budgetary accounts in the general ledger to be
                          updated. However, the posting models14 associated with two accounting
                          events were incorrect, causing an abnormal balance in a general ledger
                          account. USAID made appropriate adjustments to the general ledger
                          account and plans to correct the posting models.

                          However, because USAID did not have an integrated financial
                          management system and used a separate system to process obligations for
                          its overseas missions. The appropriation amount displayed as available
                          after the roll-up was overstated by the amount of the mission obligations.
                          To compensate for this weakness, USAID allowed only a few users to
                          apportion funds. Further, those users had access to “cuff records” 15 to
                          track mission obligations and determine the correct amount available for
                          apportionment. Because this issue should be corrected with the
                          deployment of the core financial system to the overseas missions, we will
                          not make any recommendations.

                          Computer Security Weaknesses – Office of Management and Budget
                          (OMB) Circular A-130, Appendix III, requires agencies to implement and

        12
                 An appropriation transfer occurs when funds are received from or given to another Federal agency
or another appropriation within USAID.
         13
                 An accounting event links accounting entries with updates to budgets, plans, and projects.
         14
                 Posting models are debit and credit general ledger account pairs associated with a predefined
accounting transaction.
         15
                 For this audit, "cuff records" are defined as informal, unofficial records of USAID activities.

38
                           maintain a program to assure that adequate security is provided for all
                           agency information systems. However, during recent audit work, the OIG
                           found that USAID has not yet fully developed and implemented an
                           Agency-wide security program for information systems as required.
                           Further, the OIG reported that USAID’s general controls16 had serious
                           weaknesses. Although USAID has begun to take corrective actions to
                           address these weaknesses, the OIG determined that serious general control
                           weaknesses continue to exist. Such weaknesses place USAID's financial
                           management systems at significant risk of unauthorized disclosure and
                           modification of sensitive data, misuse or damage of resources, or
                           disruption of critical operations. As a result of these weaknesses, USAID
                           was not substantially compliant with Federal financial management
                           system requirements under FFMIA.

                           Reports - According to JFMIP-SR-02-01, Core Financial System
                           Requirements, "Reporting Function:"

                           …the core financial system must provide for ready access to the
                           information it contains. Information must be assessable to personnel with
                           varying levels of technical knowledge of systems. Personnel with
                           relatively limited knowledge…must be able to access and retrieve data
                           with minimal training on the system.

                           However, in February 2002 the OIG reported that users were not always
                           able to readily obtain data to manage Agency operations. This occurred
                           because the system was operational for a short period and Agency
                           resources were focused on implementation and operation rather than
                           reporting. As a result, some system users maintained, "cuff records" to
                           supplement the core financial system.

                           Although some users still maintain “cuff records” to supplement USAID’s
                           financial management systems, the Agency has made progress in
                           providing users access to needed information. For example, among other
                           things USAID:

                           •        Enhanced the MACS Auxiliary Ledger data repository allowing
                                    mission transactions to be viewed at the strategic objective and
                                    operating unit levels.

                           •        Established a web-based report portfolio that allows users to
                                    generate financial reports from USAID/Washington and mission
                                    data.



         16
                 General controls are the structure, policies, and procedures that affect the overall effectiveness and
security of computer operations.

                                                                                                                    39
     •      Developed a listing of new requirements as well as current reports
            needing enhancement.

     Further, USAID prioritized and approved three reports for development.
     To date, two of the three reports are currently available for users, while the
     Agency continues to develop the third.

     Because USAID continues to address the need to provide useful
     information to system users, we are not making a recommendation. The
     OIG will continue to monitor USAID’s progress in improving its reporting
     capabilities.

     Federal Accounting Standards

     Standard No. 1, Accounting for Selected Assets and Liabilities –
     USAID's advances and accounts receivable did not comply with Statement
     of Federal Financial Accounting Standards (SFFAS) No. 1, as discussed
     below.

     Advances - USAID did not recognize (record) all expenses related to
     advance liquidations during fiscal year 2002. During fiscal year 2002
     USAID did not record about $22 million in expenses (advance
     liquidations). Several USAID grantees could not report their related
     expenses because the corresponding obligations were not recorded in the
     Department of Health and Human Services’ Payment Management
     System. USAID lack of an integrated financial management system also
     hindered expense reporting. Therefore, obligations established for
     advances to grantees that are managed by DHHS must be manually
     entered into the Payment Management System.

     SFFAS No. 1 states that federal agencies should record advances as assets
     when goods or services are received, contract terms are met, progress is
     made under a contract, or prepaid expenses expire. The standard further
     states that amounts of advances that are subject to refund should be
     transferred to accounts receivable.

     USAID recorded a $22 million year-end adjusting journal entry to
     decrease advances and increase expenses for these advance liquidations
     that were not submitted by grantees and processed in the system during the
     fiscal year.

     Accounts Receivable – USAID does not have an adequate system or
     process to recognize its worldwide accounts receivable in a timely
     manner. USAID is only aware of its receivables when its Office of
     Procurement, missions, and contractors/grantees report them to its Office
     of Financial Management. This situation occurred because USAID lacked
     coordination and integration of various systems, an adequate policy and

40
procedural guidance; and, as previously stated, an integrated financial
management system.

SFFAS No. 1 requires that a receivable be recognized (recorded) when a
claim to cash or other assets has been established. The establishment of a
receivable cannot occur on a timely basis unless there are adequate
procedures for recognizing and reporting accounts receivable at the end of
each accounting period. USAID did not comply with the accounts
receivable aspects of SFFAS No. 1.

Standard No. 4, Managerial Cost Accounting Concepts and Standards
for the Federal Government - USAID did not comply with one of the
fundamental elements of SFFAS No. 4 that requires establishing
responsibility segments that match costs with outputs and requires the
reporting of full costs of outputs. In addition, USAID does not have a
system to identify and report all costs against the appropriate Agency
goals. USAID did not record and report about $384 million in program
expenses in accordance with its established methodology due to missing
data, inefficient processing, and unreconciled information.

The methodology requires that program costs be directly expensed at the
intermediate output level and rolled up to the net cost reporting level of
Agency goals. USAID did not record and report the $384 million in
accordance with that methodology on its fiscal year 2002 Statement of Net
Costs. Instead, USAID allocated those costs based on a predetermined
percentage rate. The $384 million in program expenses may not have
been properly recorded against the appropriate Agency goals in USAID’s
Fiscal Year 2002 Statement of Net Costs. The information needed to
properly allocate these expenses was not available to USAID at the time
the financial statements were prepared.

Additionally, USAID had about $22 million in expenses associated with
the advances managed by DHHS that were not identified and recorded by
USAID during fiscal year 2002. These expenses were not reported by
DHHS because the related obligations for which the expenses were
incurred were not recorded in the Payment Management System.
According to the agreement established between USAID and DHHS, all
awards to grantees for advancing funds must be entered into the Payment
Management System before the liquidation of the advance funds can
occur.

Standard No. 10, Accounting for Internal Use Software – In February
2002, the OIG reported that USAID did not accurately compile and report
the proper amount for capitalized software for fiscal year 2001.
Specifically, the amount did not include costs funded in prior years for
services received in fiscal year 2001 (accrual basis of accounting).
Furthermore, USAID did not capitalize cost by fiscal year, did not have all

                                                                          41
     the required support documentation readily available, and did not
     reconcile the property records with the financial records.

     According to Federal Accounting Standards Advisory Board (FASAB) 10,
     Federal agencies are required to capitalize the cost of internal use
     software, whether software is commercial off-the-shelf, contractor-
     developed, or internally developed. The capitalized cost for commercial
     off-the-shelf software should include the amount paid to the vendor for the
     software. For contractor-developed software, capitalized cost should
     include the amount paid to a contractor to design, program, install, and
     implement the software. USAID's policy is to capitalize software that
     exceeds a $300,000 threshold.

     During fiscal year 2002, USAID developed detailed procedures to meet
     the requirements of the standard. By implementing these procedures,
     USAID was able to determine the proper costs to report. For fiscal year
     2002, $4.2 million was capitalized in accordance with the requirements of
     Standard 10, Accounting for Internal Use Software. Therefore, USAID
     was in compliance with the Standard for fiscal year 2002.

     Standard No. 15, Management’s Discussion and Analysis (MD&A) -
     According to SFFAS 15, each general purpose federal financial report
     should include financial statements and a section devoted to the MD&A.
     SFFAS 15 states that the MD&A is required supplementary information
     and should include, among other things, information on performance goals
     and results that relate to the financial statements.

     Based on our review of a draft of the MD&A, dated December 2, 2002,
     The OIG determined that the draft MD&A did not provide a clear and
     concise description of program performance that related to the financial
     statements included in the Performance and Accountability Report.
     Specifically, the program results reported:

     a.     Represented, for the most part, program activities that took place
            prior to fiscal year 2002.

     b.     Did not reflect the achievements of program funds expended
            during fiscal year 2002.

     Additionally, the draft MD&A contained few performance goals or targets
     for fiscal year 2002.

     United States Standard General Ledger at the Transaction Level

     FFMIA requires agencies to implement and maintain systems that
     comply substantially with, among other things, the United States
     standard general ledger at the transaction level. This requires the

42
agency’s recording of financial events to be consistent with all
applicable account descriptions and posting models/attributes reflected
in the standard general ledger issued by the Financial Management
Service, Department of the Treasury.

Core Financial System – The OIG previously determined that USAID
did not substantially comply with the standard general ledger at the
transaction level. In fiscal year 2001, it was reported USAID did not
record mission activities—accounting for approximately 52 percent of
USAID's total net cost of operations—using the standard general ledger at
the transaction level. This occurred because USAID recorded mission
activities in the Mission Accounting and Control System—a computer-
based system that did not have a standard general ledger chart of accounts.
Instead, the Mission Accounting and Control System uses transaction
codes to record transactions.

As a result, USAID cannot ensure that transactions are posted properly and
consistently. Therefore, USAID needs to record mission activities using the
standard general ledger at the transaction level to support financial reporting
and meet requirements. However, until USAID deploys its core financial
system worldwide, the Mission Accounting and Control System will
continue to operate as the financial system for overseas missions.

In fiscal year 2002, USAID conducted a business modernization study to
identify opportunities for improving the Agency's financial management
areas. That study recommended the accelerated deployment of the core
financial system to the missions in order to comply with FFMIA.
However, subsequent to that study, in a joint memorandum issued by the
OIGs of the Department of State and USAID the OIGs recommended
additional studies to consider the possibility of jointly deploying the
system overseas as a means to maximize potential efficiencies.
Consequently, such studies may impact the timeframe for deploying the
core financial system overseas.

Feeder Systems - The Joint Financial Management Improvement Program
“Framework for Federal Financial Management Systems” (FFSMR-0,
January 1995) describes an interface as occurring when “one system feeds
data to another system following normal business/transaction cycles.”
Further, interface linkages must be electronic unless the number of
transactions is so small that it is not cost-beneficial to automate the
interface.

USAID uses two material feeder systems that have been automatically
interfaced with the core financial system: (1) the letter of credit grant




                                                                             43
                         processing system and (2) the loan processing system.17 These two feeder
                         systems meet the Office of Management and Budget indicators used to
                         decide whether the systems are in compliance with revised FFMIA
                         requirements.

                         Remediation Plan

                         Office of Management and Budget Circular A-11 states that an agency that is
                         not in compliance with FFMIA must prepare a remediation plan. The
                         purpose of a remediation plan is to identify activities planned and underway
                         that will allow USAID to achieve substantial compliance with FFMIA.
                         Remediation plans must include the resources, remedies, interim target dates,
                         and responsible officials. Further, the remediation target dates must be
                         within three years of the date when the system was determined not to be
                         substantially compliant.

                         According to USAID (and as shown in the table below), USAID achieved
                         five of the seven remediation targets for fiscal year 2002. Although
                         USAID has made progress in becoming FFMIA compliant, the Agency
                         did not fully meet two of the seven major targets established in USAID’s
                         remediation plan for completion in fiscal year 2002. According to the
                         remediation plan, two targets were revised and scheduled to be completed
                         the next quarter.




        17
                 Office of Management and Budget determined that these two systems met the definition of a
feeder system.

44
                                                               USAID's Targets for Fiscal Year 2002 18
                                                            Remediation Plan – September 2002
                                               Was Target     Target       Revised
                    Remedy                     Achieved?       Date         Date                 Comments

                1   Conduct a study to         No, but      4th Qtr      1st Qtr FY     Schedule includes
                    make more effective        only minor   FY 2002      2003           implementing the system in
                    use of capital planning,   slippage                                 pilot missions in FY 2003 and
                    enterprise architecture,                                            further deployment in FY
                    and modern business                                                 2004 and FY 2005, based on
                    practices to modernize                                              the availability of adequate
                    the Agency’s business                                               funding in the Capital
                    systems and accelerate                                              Investment Fund. Additional
                    deployment of Phoenix                                               studies are being sought to
                    Agency-wide.                                                        further maximize use of fund
                                                                                        resources.


                2   Implement electronic       Yes          1st Qtr      Completed      N/A
                    interfaces between                      FY 2002
                    Phoenix and feeder
                    systems.

                3   Implement Phoenix in       Yes          4th Qtr      Completed      The Agency closed this at end
                    Washington and                          FY 2002                     of FY 2002. MAL Release
                    MACS Auxiliary                                                      3.0 was deployed in July
                    Ledger (MAL)                                                        2002. This provided a
                    enhancements to                                                     common accounting
                    support Agency-wide                                                 classification structure via
                    financial reporting.                                                crosswalks at the operating
                                                                                        unit and Strategic Objective
                                                                                        (SO) levels. The
                                                                                        Consolidated Pipeline report
                                                                                        was implemented in August
                                                                                        2002, which provides the
                                                                                        ability to perform Agency-
                                                                                        wide strategic objective-level
                                                                                        reporting and allows users to
                                                                                        make decisions at the
                                                                                        operational level. USAID
                                                                                        fully implemented the web-
                                                                                        based reporting tool, Crystal
                                                                                        Enterprise. The coordination
                                                                                        of the web-based enterprise
                                                                                        reporting tool implementation
                                                                                        with the MAL Release 3.0
                                                                                        schedule delayed this remedy.

                4
                    Implement further          Yes          3rd Qtr      Completed      In July 2002, the Mission
                    enhancements to                         FY 2002                     Accounting and Control
                    MACS Auxiliary                                                      Auxiliary Ledger expanded
                    Ledger to fully                                                     its ability to crosswalk
                    implement crosswalk                                                 monthly field data to Phoenix
                    tables.                                                             operating units and SOs.
                                                                                        More time for development
                                                                                        and testing was required than
                                                                                        anticipated.


                5   Implement the Phoenix      Yes          1st Qtr      Completed      The accrual process was
                    core financial system                   FY 2002                     implemented in Dec. 2001.
                    that calculates and                                                 The Accruals Report System
                    reports accounts                                                    was enhanced to post accrual
                    payable and accrual                                                 information at both the
                    expenses.                                                           contract and contract line

18
     All the data in this table was not verified as part of the audit.

                                                                                                                       45
                                                      USAID's Targets for Fiscal Year 2002 18
                                                   Remediation Plan – September 2002
                                     Was Target      Target       Revised
          Remedy                     Achieved?        Date         Date                   Comments
                                                                               level in July 2002. The
                                                                               development and testing
                                                                               process was longer than
                                                                               anticipated.


      6   Update cost allocation     No, due to    4th Qtr      1st Qtr FY     The Agency created a cost
          model to allocate costs    funding       2002         2003           allocation model using
          of Agency programs to      constraints                               Phoenix’s Cost Allocation
          the operating unit and                                               module. The model under its
          strategic objective                                                  current form, allocates
          level for Washington                                                 indirect costs recorded in the
          and missions.                                                        Management Bureau to
                                                                               benefiting bureaus. Using
                                                                               off-line cost allocation
                                                                               techniques, these costs are
                                                                               then allocated to strategic
                                                                               objectives, which are linked
                                                                               to Agency goals. In FY 2001,
                                                                               mission costs were directly
                                                                               assigned to an Agency goal
                                                                               without first being associated
                                                                               with strategic objectives. The
                                                                               final mapping between
                                                                               mission projects and strategic
                                                                               objectives was completed
                                                                               July 2002. As a result, the
                                                                               Agency is able to assign
                                                                               mission direct costs to
                                                                               strategic objectives and
                                                                               produce Statement of Net
                                                                               Cost. The cost drivers and
                                                                               allocation module will need
                                                                               to be updated to account for
                                                                               the missions’ indirect costs
                                                                               when Phoenix is implemented
                                                                               in the field.


      7   Update policies and        Yes           3rd Qtr      Completed      USAID’s ADS Chapter 625
          procedures for billings,                 FY 2002                     was updated in July 2002 to
          receivables and debt                                                 address due process demands,
          collection in the                                                    referral of debt to the U.S.
          Agency’s Automated                                                   Treasury, and reporting to
          Directives System.                                                   consumer credit agencies.




     In addition, in a joint Department of State - USAID OIG memorandum,
     the OIGs recommended additional studies to consider the possibility of
     jointly deploying the system overseas as a means to maximize Federal
     resources. Consequently, such studies may impact the timeframe for
     deploying the core financial system overseas and USAID’s overall target
     of becoming substantially compliant with FFMIA.


     Computer Security Act

     The Computer Security Act of 1987 (Public Law No. 100-235) requires
     Federal agencies to protect information by (1) identifying sensitive

46
systems, (2) developing and implementing security plans for sensitive
systems, and (3) establishing a training program to increase security
awareness and knowledge of accepted security practices. To further
improve program management and evaluations of agencies’ computer
security efforts, the Government Information Security Reform Act (Public
Law No. 106-398) was passed in October 2000.

Since September 1997, the OIG has reported that USAID did not
implement an effective computer security program as required. In
response to OIG audits, USAID has made substantial computer security
improvements. For example, USAID:

•      Upgraded its system software for USAID/Washington and most of
       its overseas missions, and, according to USAID management,
       USAID is ahead of scheduled.

•      Built a set of web-based surveys that migrate information directly
       into a formalized draft security plan.

•      Developed on-line classes for the annual computer security
       awareness training and for new user training.

•      Conducted certification and accreditation of its core financial
       system and Mission Accounting and Controls System at
       USAID/Washington.

•      Selected a new Information System Security Officer.

•      Implemented practices to standardize the security configurations of
       computer operating systems.

Also, according to USAID, the Agency conducted a certification and
accreditation of the General Support System and Mission Accounting and
Controls Systems at nine overseas missions. In addition, USAID is
revising its risk assessment methodology for determining the appropriate
level of controls based on the evaluation of risk compared to the cost-
benefit to be expected from reducing the risk.

However, recent audit work has shown that, although USAID has taken
steps to improve computer security, more work is needed to ensure that
sensitive data are not exposed to unacceptable risks of loss or destruction.
As of September 30, 2002, USAID has stated it plans to correct this
material weakness by September 2004. The OIG will continue to monitor
USAID's progress to improve its computer security, compliance with
FFMIA, and the Debt Collection and Improvement Act.



                                                                          47
     Debt Collection and Improvement Act of 1996

     The Debt Collection Improvement Act of 1996 and the Federal Claims
     Collection Standards authorize USAID to:

     1.     Collect debts owed to the Agency by means of administrative
            offset.

     2.     Assess interest, penalties, and administrative costs on overdue
            debts against its debtors.

     3.     Contract for private collection services.

     4.     Disclose information on debts to credit reporting agencies.

     5.     Report compromises to the Internal Revenue Service.

     USAID's Claims Collection Standards, 22 CFR 213, cover the due process
     rights of debtors and procedures for collecting delinquent debt.

     USAID has not complied with all elements of the Debt Collection and
     Improvement Act of 1996 that require federal agencies to report to the
     Department of Treasury any receivables that should be included in the
     Treasury’s offset program. This situation occurred primarily because
     USAID does not have an effective process for establishing accounts
     receivable.

     Providing an opinion on compliance with certain provisions of laws and
     regulations was not an objective of our audit and, accordingly, we do not
     express such an opinion.



     Bruce N. Crandlemire /s/

     Office of the Inspector General
     January 24, 2003




48
Management       We received USAID’s management comments and suggested changes to
Comments and     the findings and recommendations included in our draft report. USAID
Our Evaluation   management agreed with all findings and recommendations. Management
                 commented that recommendation No. 5 and No. 6 could not be fully
                 implemented until a worldwide integrated financial management system is
                 deployed. We have evaluated USAID management comments on the
                 recommendations and have reached management decisions on all ten
                 recommendations. We have also made the suggested changes where
                 deemed necessary. The following is a brief summary of USAID’s
                 management comments on each of the ten recommendations included in
                 this report and our evaluation of those comments.

                 Recommendation No. 1

                 USAID management agreed with Recommendation No. 1 and commented
                 that it will implement Recommendation Nos. 1.1 and 1.2 by June 30,
                 2003. We will review USAID’s methodologies and automated posting
                 process during our fiscal year 2003 GMRA audit.

                 Recommendation No. 2

                 USAID management agreed with Recommendation No. 2 and commented
                 that it will implement Recommendation Nos. 2.1 and 2.2 by October 1,
                 2003. During our fiscal year 2003 GMRA audit, we will review USAID’s
                 guidelines for overseas missions and process to reconcile the mission
                 adjustment account in the general ledger to the cumulative amounts in the
                 mission ledgers and resolve differences between those two ledgers.

                 Recommendation No. 3

                 USAID management agreed with Recommendation Nos. 3.1, 3.2, and 3.3
                 and commented that it issued improved guidance in January 2002, in the
                 revision to the Automated Directive System No. 621, Obligations, that
                 addresses the intent of this recommendation. Second, that it will review
                 documentation of several Automated Directive System guidance for
                 accounts payable to ensure that adequate guidance and instructions are in
                 place and these recommendations are properly implemented. Lastly, it
                 will implement this recommendation by March 31, 2003. We agree with
                 USAID’s management decision on Recommendation Nos. 3.1, 3.2, and
                 3.3. During our fiscal year 2003 GMRA audit, we will review USAID’s
                 progress of reviewing unliquidated obligations and documentation of
                 guidance that properly supports the implementation of this
                 recommendation.




                                                                                        49
     Recommendation No. 4

     In regards to this recommendation, USAID management commented that
     there are still some problems with getting documentation from Grant
     Officers in a timely manner and that Grant Officers are not under the control
     of the Office of Financial Management. In addition, USAID commented
     that this recommendation was transferred to the Office of Financial
     Management to the Office of Procurement and that the Office of
     Procurement agreed to issue additional guidance to ensure that grant officers
     send the documentation to the Office of Financial Management within ten
     business days. We agree with their management decision on this
     recommendation and the revision to Recommendation No. 4 to identify the
     Office of Procurement taking this corrective action. Further, USAID
     commented that it implement this recommendation by March 31, 2003.
     During our fiscal year 2003 GMRA audit, we will review USAID’s progress
     of sending documentation to the Office of Financial Management and
     documentation of guidance that properly supports the implementation of this
     recommendation. USAID management commented that a new
     recommendation was not necessary. We included Recommendation No. 4
     because we believed that action is needed by USAID’s Chief Financial
     Officer to reduce the problem of not recording grants and/or modifications in
     the DHHS Payment Management System in a timely manner.

     Recommendation No. 5

     USAID management commented that the situation likely continues until a
     worldwide integrated accounting system is deployed. Further, USAID
     commented that it continues to review the situation and will determine
     additional interim measures that can be implemented. Management
     commented that this recommendation is a duplicate from last year’s report
     that was closed on September 30, 2002. During our FY 2002 audit, the
     OIG found that USAID established a system to enter new grants and/or
     modification in the DHHS Payment Management System in a timely
     manner. However, this system has not been fully implemented. For
     example, our FY 2002 audit found that USAID had not recorded 105
     grants and/or modification valued at about $253 million in the DHHS
     Payment Management System. Therefore, we are restating this
     recommendation to bring this issue to management’s attention again.
     USAID management commented that it plans to implement
     Recommendation No.5 by March 31, 2003. We agree with the
     management decision on this recommendation and plan to review
     USAID’s progress in recording grants and/or modification in the Payment
     Management System during our FY 2003 GMRA audit.




50
Recommendation No. 6

USAID management commented that it will review and update guidance
on establishing and reporting on accounts receivable in the Automated
Directive System no. 625, Accounts Receivable and implement this
recommendation by June 30, 2003. We agree with this management
decision regarding this additional action needed. USAID further
commented that this recommendation duplicates Recommendation No. 4
in Audit Report 0-000-02-006-F and remains open because USAID does
not have a worldwide integrated accounting system until Phoenix is
deployed. However, USAID continues to rely on data calls to obtain
accounts receivable data from overseas missions. During our fiscal year
2003 GMRA audit, we will review USAID’s progress of establishing and
reporting accounts receivable.

Recommendation No. 7

USAID management agreed with Recommendation No. 7 and commented
that it will consult with the Office of Procurement and expand and update
the guidance under Automated Directive System. USAID commented that
it would implement this recommendation by June 30, 2003. We agree
with the management decision on this recommendation and will review
USAID’s updated guidance and progress towards establishing accounts
receivable in a timely manner.

Recommendation No. 8

USAID management agreed with Recommendation Nos. 8.1, 8.2, and 8.3
and commented that they plan to make appropriate revisions to the
Automated Directive System guidance for credit programs and implement
these recommendations by July 31, 2003. We agree with the management
decision on this recommendation and will review USAID’s updated
guidance that supports the implementation of this recommendation.

Recommendation No. 9

USAID management agreed with Recommendation Nos. 9.1 and 9.2 and
commented that it had encountered problems in monthly closing in the
early months of the fiscal year due to conflicting priorities (e.g.,
development of the Congressional Budget Justification) and will carefully
adjust dates for Mission Accounting Control System and Auxiliary Ledger
closings and dates for monthly Phoenix closing. Despite the challenges,
USAID agreed that monthly closing reduces the number of reconciling
items. USAID expects to close this recommendation by June 30, 2003.
We agree with the management decision on this recommendation. During
our FY2003 GMRA audit, we will review USAID’s progress in closing
the monthly general ledger.

                                                                      51
     Recommendation No. 10

     USAID management agreed to implement Recommendation No. 10 by
     March 31, 2003. During our FY 2003 GMRA audit, we will review
     USAID’s progress in disposing of and removing computer-related
     properties from its non-expendable property inventories and financial
     records.


     See Appendix II for USAID’s management comments.




52
                                                                                                  Appendix I

  Scope and                       Scope
  Methodology
                                  This audit was conducted in accordance with generally accepted
                                  government auditing standards. Following those standards, we
                                  assessed the reliability of USAID’s fiscal year (FY) 2002 financial
                                  statements, related internal controls, and compliance with
                                  provisions of applicable laws and regulations.

                                  We obtained an understanding of the account balances reported in
                                  USAID’s FY 2002 financial statements. The OIG determined
                                  whether the amounts were reliable, whether applicable policies and
                                  procedures were established, and whether they had been placed in
                                  operation to meet the objectives of the Federal Accounting
                                  Standards Advisory Board and other regulations. We considered
                                  all reasonable efforts made by USAID’s management to improve
                                  its financial management and respond to our previous
                                  recommendations relating to the operations of its financial
                                  portfolio.

                                  We statistically selected and reviewed FY 2002 financial
                                  statements and financial related activities at USAID/Washington
                                  and 16 USAID missions19. A planning materiality threshold of five
                                  percent and testing materiality threshold of three percent was
                                  calculated. These materiality thresholds were based on USAID FY
                                  2001 total assets net of intergovernmental balances. Any amount
                                  over $75 million was considered material and included in our audit
                                  of USAID’s FY 2002 financial statements. All exceptions were
                                  considered in the aggregate to determine whether USAID’s FY
                                  2002 financial statements were reliable.

                                  With respect to the Management’s Discussion and Analysis
                                  (MD&A), we did not perform an audit. However, we gained an
                                  understanding of USAID’s system of collecting and reporting
                                  performance information. We did not assess the quality of the
                                  performance indicators and performed only limited tests to assess
                                  the controls established by USAID. Based on our limited tests of
                                  the measurement and presentation of performance results reported
                                  in the MD&A, we identified certain deficiencies that, in our


        19
                  The 16 missions selected were USAID: Georgia, Hungary, Bulgaria, Bosnia, Egypt, Jordan, The
Philippines, Ethiopia, Uganda, Serbia, Kosovo, Kazakhstan, Cambodia, Bolivia, Honduras, and Peru. USAID
Bulgaria, Bosnia, and Serbia were visited only during the internal control phase of the audit.



                                                                                                                53
            judgment, adversely affected USAID’s portrayal of performance
            results as required by prescribed guidelines.

     Methodology

     In accomplishing our audit objectives, we reviewed significant line items
     and amounts related to USAID’s fiscal year 2002 financial statements.
     These financial statements include Balance Sheet, Statement of Net Costs,
     Statement of Changes in Net Position, Statement of Budgetary Resources,
     and Statement of Financing. To accomplish the audit objectives we:

     •      Obtained an understanding of the components of internal control
            and assessed the level of control risk relevant to the assertions
            embodied in the class of transactions, account balances, and
            disclosure components of the financial statements.

     •      Performed tests of compliance with laws and regulations that could
            have a direct and material effect on USAID’s financial statements
            including the Federal Financial Management Improvement Act.

     •      Conducted internal control reviews at USAID/Washington and 16
            statistically selected missions and detailed audit tests of selected
            account balances at USAID/Washington and the 13 statistically
            selected missions.

     •      We statistically selected and confirmed outstanding advances to
            grantees and selected direct loan balances.

     •      Reviewed prior audit reports related to USAID financial activities
            and determined their impact on USAID’s fiscal year 2002 financial
            statements.

     •      Conducted meetings with USAID management, employees,
            contractors, grantees, and other parties associated with the
            information presented in the FY 2002 financial statements.

     •      Followed-up on previous financial statement audit
            recommendations and restated those recommendations that were
            not implemented by USAID management.

     •      Conducted a limited review of the internal controls related to the
            existence and completeness assertions relevant to the performance



54
measures included in the MD&A. We also reviewed the
December 2, 2002, draft of the MD&A.




                                                      55
     This page intentionally left blank




56
                                                                           Appendix II



USAID’s
Management
Comments

             86 $*(1&< )25

             ,17(51$7,21$/

             ' (9(/230(17




             MEMORANDUM                                            January 21, 2003
             
             TO:     AIG/A, Bruce N. Crandlemire

             FROM:             CFO, Susan J. Rabern /s/

             SUBJECT:          Management Response to Draft Independent Auditor's
                               Report on USAID's Consolidated Financial Statements,
                               Internal Controls, and Compliance for Fiscal Year 2002
                               (Report No. 0-000-03-001-C)

                     Thank you for the opportunity to respond to the draft report. We
             are extremely pleased that you are able to issue opinions on all of USAID's
             five principal financial statements. We appreciate the spirit of cooperation
             and level of dedication and effort between OIG and Agency staff that made
             this significant milestone possible.

             Following are our management decisions regarding the proposed audit
             recommendations:

             USAID’s Process for Allocating Program Expenses on its Statement of
             Net Costs Needs Improvement

             Recommendation 1: We recommend that the CFO establish requirements
             to:

             1.1    Modify the manual distribution methodology, when there is no fund
                    cite, to match expenses related to advances reported by the U.S.
                    Department of Health and Human Services (DHHS); and

             1.2    Ensure that USAID’s automated posting process uses the DHHS
                    posting methodology.




                                                                                        57
     Management Decision: We agree to implement recommendations 1.1 and
     1.2. Target completion date is June 30, 2003.

     USAID’s Process for Reconciling its Fund Balance with the U.S.
     Treasury Needs Improvement

     Recommendation 2: We recommend that the CFO:

     2.1    Provide detailed guidelines to overseas missions for writing off old
            reconciling items. These guidelines should include the
            reconciliation steps that should be completed before write-offs are
            requested by USAID missions.

     2.2    Reconcile the mission adjustment account in the general ledger to
            the cumulative amounts in the mission ledgers and resolve
            differences between the general ledger and the mission ledgers.

     Management Decision: We agree to implement recommendations 2.1 and
     2.2. Target completion date is October 1, 2003.

     USAID’s Internal Controls Over its Accounts Payable Process Need
     Improvement (Repeat Finding)

     Recommendation 3: We recommend that the CFO coordinate with M/OP
     and:

     3.1    Develop a standardized documentation requirement for estimating
            accounts payable in Washington and missions on a timely basis.

     3.2    Issue detailed guidance and instructions for reviewing and reporting
            to M/OP obligations that are available for deobligation.

     3.3    Issue detailed guidance requiring CTO's to maintain adequate
            documentation supporting accounts payable as required by the
            ADS.

     Management Decision: We agree to implement recommendations 3.1, 3.2,
     and 3.3. Improved guidance issued on January 17, 2002, in the revision to
     ADS 621, Obligations, addresses the intent of these recommendations.
     This revised and expanded guidance is the result of extensive work done
     this year by the Agency’s deobligation/reobligation quick hit team. To
     ensure that these recommendations are properly implemented, we will
     review ADS 621, Obligations, ADS 630, Payables Management, and ADS
     631, Accrued Expenditures, to ensure that adequate guidance and
     instructions are in place. Target completion date is March 31, 2003.



58
USAID’s Process for Reconciling and Classifying Advances to
Grantees Needs Improvement (Repeat Finding)

Recommendation 4: We recommend that the CFO, in coordination with
the Director, M/OP, establish procedures to ensure that all new grant
agreements and/or modifications are submitted to M/FM/CMP within ten
business days after their execution.

Management Decision: Although this is a repeat finding from last year, we
have shown significant improvement. As the draft report indicates, on
September 30, 2002, USAID had not recorded approximately 105 grant
agreements or amendments in the Payment Management System (PMS).
The report indicates that since then, 78 of the 105 agreements have been
recorded. This is a vast difference from the 278 agreements that had not
been recorded at the end of FY 2001. In fact, recommendation 4 is a
duplicate of recommendation 2.2 from last year’s report, 0-000-02-006-F.
This recommendation currently remains open despite improvements and
the issuance of guidance (Contract Information Bulletin 01-18), because
there are still some problems with getting documentation from grants
officers in a timely manner. In an attempt to improve this process further,
and because grants officers are not under the control of M/FM, the open
audit recommendation was transferred from M/FM to M/OP on December
18, 2002. M/OP has agreed to issue additional guidance stressing the need
to forward this documentation to M/FM within ten business days. For this
reason, we do not believe that a new recommendation is necessary, but if
the recommendation appears in the final audit report, it should be directed
to M/OP, rather than to the CFO. The target closure date is March 31,
2003.

Recommendation 5: We recommend that the CFO establish procedures to
ensure that M/FM/CMP enters all new grants and/or modifications in the
Payment Management System within ten days of receiving them.

Management Decision: This recommendation is also a duplicate from last
year’s report. Recommendation 2.3 from audit report 0-000-02-006-F was
closed on September 30, 2002, based on the following:

•      A system was established to monitor the amount of time it took
       M/FM/CMP staff to enter data into the PMS. Between March and
       August 2002, the number of working days averaged between six
       and thirteen days. The monthly average was less than nine days.

•      To facilitate the receipt of documentation, a central email box was
       set up so that grants officers could scan and email awards to FM, a




                                                                         59
            drop box was set up in FM to receive hardcopy documentation, and
            web-based data gathering from grantees was established.

     As the draft report indicates, this situation will likely continue until a fully
     integrated, worldwide system is deployed. In the meantime, we will
     continue to review the problem and determine if there are additional
     interim measures that can be implemented. Target closure date is March
     31, 2003.

     USAID’s Process for Recognizing and Reporting Accounts Receivable
     Needs Improvement (Repeat Finding)

     Recommendation 6: We recommend that the CFO develop and implement
     a system for the immediate recognition and reporting of all accounts
     receivable that are due to USAID at the end of each accounting period.

     Management Decision: This recommendation duplicates recommendation
     4 from audit report 0-000-02-006-F, which remains open. Last year we
     related that we cannot fully implement this recommendation until a
     worldwide integrated accounting system is deployed. Until then, we will
     continue to rely on data calls to obtain accounts receivable data for
     financial statement preparation. As an additional action, we will review
     and update guidance on establishing and reporting on accounts receivable
     in ADS 625, Administrative Accounts Receivable. Target closure date for
     this action is June 30, 2003.

     Recommendation 7: We recommend that the CFO, in coordination with
     the Director, M/OP, develop and implement procedures to ensure that the
     necessary information is forwarded to M/FM for the establishment of
     accounts receivable whenever agreement is reached with contractors and
     grantees that funds are owed to USAID.

     Management Decision: We agree to implement this recommendation.
     Although policy guidance exists in ADS 625, Administrative Accounts
     Receivable, and ADS 595, Audit Management Program, we will consult
     with M/OP and expand and update the guidance. The target closure date
     for this recommendation is June 30, 2003.

     USAID’s Process for Calculating Credit Program Allowances Needs
     Improvement

     Recommendation 8: We recommend that the CFO establish procedures to
     ensure that:




60
8.1    All credit program and management personnel are cognizant of
       changes in government policies and procedures that may have an
       impact on credit and loan programs;

8.2    An assessment of the impact on the financial information presented
       in internal and external reports is required; and

8.3    Second party reviews are conducted for final credit program and
       loan balances amounts at the end of the fiscal year before the
       annual financial statements are prepared.

Management Decision: We agree to implement recommendations 8.1, 8.2
and 8.3 by making appropriate revisions to ADS 623, Financial
Management of Credit Programs. Target closure date is July 31, 2003.

USAID’s Monthly and Year End Closing Procedure Needs
Improvement

Recommendation 9: We recommend that the CFO establish written
procedures to:

   Close monthly accounting periods on the dates established by the
       U.S. Treasury and prepare adjusting journal entries for any changes,
       corrections, or adjustments that are made after an accounting period
       is closed.

9.2    Include final dates for entering transactions into the general ledger
       before closing. The final dates should be provided to all employees
       responsible for entering transactions that may affect the general
       ledger.

Management Decision: We agree to implement recommendations 9.1 and
9.2. It has been our experience that the process of monthly closing has not
been effective in the early months of the fiscal year, due to conflicting
priorities during the first quarter, such as the development of the
Congressional Budget Justification (CBJ) and focusing critical attention on
the previous year’s closing and audit. We will also need to carefully adjust
dates for MACS and MAL postings when establishing procedures and
dates for a monthly close. Despite the challenges, we agree that this is a
good idea and will reduce the number of reconciling items. Target closure
date is June 30, 2003.

USAID’s Controls and Management of Certain Computer Equipment
at Missions Need Improvement




                                                                         61
     Recommendation 10: We recommend that the CFO coordinate with the
     Office of Overseas Management Services (M/OMS) and notify all missions
     to dispose of and remove the Reduced Instruction Set Computer System
     6000 R-20 Lan Server and the IBM subsystem cabinet from their
     respective non-expendable property inventories and financial records.

     Management Decision: We agree to implement recommendation 10.
     Target closure date is March 31, 2003.




62
                                                                                  Appendix III



Status of           Office of Management and Budget’s (OMB) Circular No. A-50 states that a
Uncorrected         management decision on audit recommendations shall be made within a
Findings and        maximum of six months after issuance of a final report. Corrective action
Recommendations     should proceed as rapidly as possible. The following audit recommendations
from Prior Audits   directed to USAID remain uncorrected and/or final action has not been
                    completed as of September 30, 2002. We have also noted where final action
That Affect the
                    was taken subsequent to fiscal year-end but prior to the date of this report.
Current Audit
Objectives          Audit of USAID’s Compliance with
                    Federal Computer Security Requirements
                    Audit Report No. A-000-97-008-P, September 30, 1997

                    Recommendation No. 2: We recommend that the Acting Assistant
                    Administrator for Management demonstrate support for an effective
                    computer security program by taking action to direct the computer security
                    program manager to develop and implement an effective computer security
                    program by:

                    2.2    Ensuring that adequate resources and skills are available to
                           implement the program.

                    2.4    Implementing disciplined processes to ensure compliance with the
                           Computer Security Act of 1987 and OMB Circular A-130.

                    2.5    Bringing sensitive computer systems, including the New
                           Management System, into compliance with computer security
                           requirements by: (1) assigning security responsibility, (2) preparing
                           security plans, (3) completing contingency/disaster recovery plans,
                           (4) identifying technical controls, (5) conducting security reviews,
                           and (6) obtaining management’s authorization before allowing
                           systems to process data.

                    Recommendation is pending final action by USAID.




                                                                                               63
     Reports on USAID'S Financial Statements,
     Internal Controls, and Compliance
     for Fiscal years 1997 and 1996
     Audit Report No. 0-000-98-001-F, March 2, 1998

     Recommendation No. 7: We recommend that USAID:

     7.1    Establish procedures to ensure (1) operating units report results for
            the year ended September 30 and (2) results reported in the overview
            section of USAID's financial statements and Annual Performance
            Report be clearly shown as achievements for that year.

     Recommendation is pending final action by USAID.


     Audit of Access and System Software Security Controls
     Over the Mission Accounting and Control System (MACS)
     Audit Report No. A-000-99-002-P, December 31, 1998

     Recommendation No. 1: We recommend that the Director of IRM
     strengthen MACS’ access and system software controls by developing and
     implementing standards for access and system software installation and
     maintenance. These standards should implement the agency’s policies
     pertaining to access and system software controls and thus, provide step-
     by-step guidance to mission system managers in the implementation of
     these controls. These standards should specifically address the controls
     described in GAO’s Federal Information System Controls Audit Manual.

     Recommendation is pending final action by USAID.


     Report on USAID’s Financial Statements,
     Internal Controls, and Compliance for Fiscal Year 1998
     Audit Report No. 0-000-99-001-F, March 1, 1999

     Recommendation No. 1: Because the Chief Financial Officer lacks the
     authority called for in the CFO Act, we recommend that the Chief
     Financial Officer collaborate with the Assistant Administrator for
     Management, Chief Information Officer, and Bureau For Policy and
     Program Coordination to:

     1.1    Determine the specific responsibility, authority, and resources
            needed to meet the requirements of the Chief Financial Officers Act
            of 1990, which assigns the Chief Financial Officer responsibility to:
            (1) develop and maintain an integrated accounting and financial
            management system that meets federal financial system


64
       requirements, federal accounting standards, and the U.S. Standard
       General Ledger at the transaction level; (2) approve and manage
       financial management system design and enhancement projects;
       and (3) develop a financial management system that provides for
       systematic measurement of performance.

Recommendation is pending final action by USAID.


Report to USAID Managers on Selected
USAID Internal Controls for Fiscal Year 1998
Audit Report No. 0-000-99-002-F, March 31, 1999

Recommendation No. 10: We recommend that USAID’s Bureau for
Policy and Program Coordination:

10.2   Develop internal controls for identifying the full costs (USAID
       program and operating expenses and funding by other donors and
       host countries) of USAID programs, activities, and outputs.

Recommendation is pending final action by USAID.


Audit of USAID’s Actions to Correct Financial
Management System Planning Deficiencies
Audit Report No.A-000-00-003-P, August 24, 2000

Recommendation No. 1: We recommend that the Chief Information
Officer, in conjunction with the Capital Investment Review Board and the
Chief Financial Officer:

1.1    Develop and implement a process for selecting information
       technology investments that meets requirements of OMB’s guidelines
       for Selecting Information Technology Investments and GAO’s
       Executive Guide: Leading Practices in Capital Decision Making; and

1.2    Apply the process to prioritize USAID’s financial management
       system investments as part of a portfolio of planned information
       technology investments for USAID’s Fiscal year 2002 budget
       submission to OMB.

Recommendation is pending final action by USAID.




                                                                          65
     Audit of USAID’s Compliance with the Provisions
     of the Government Information Security Reform
     Audit Report No. A-000-01-002-P, September 25, 2001

     Recommendation No. 1: We recommend that the Chief Information Officer
     obtain evidence that the security requirements have been applied to USAID’s
     mission critical systems. For those systems that are operated by other
     agencies and organizations, the responsible Assistant Administrator, the Chief
     Financial Officer, the Director of Human Resources, or the Director of the
     Office of Procurement shall provide the Chief Information Officer evidence
     that proper protection exists for those systems.

     Recommendation is pending final action by USAID.

     Recommendation No. 2: We recommend that Chief Information Officer
     provide and document that USAID employees in key security positions
     obtain training to allow them to conduct their security responsibilities.

     Recommendation is pending final action by USAID.

     Recommendation No. 3: We recommend that the Chief Information Officer
     conduct a study to determine the feasibility of monitoring controls, intrusion
     detection, and additional sensors for sensitive systems.

     Recommendation is pending final action by USAID.

     Recommendation No. 5: We recommend that the Chief Information Officer
     centralize security functions to oversee, enforce, and coordinate security and
     related functions.

     Recommendation is pending final action by USAID.

     Recommendation No. 6: We recommend that the Chief Information Officer
     coordinate the revision of appropriate Automated Directives System Chapters
     and any other supporting guidance to include and/or clarify the government
     information security reform-mandated requirements, especially those that
     pertain to incorporating security into the investment process, enterprise
     architecture, and contractor-provided services.

     Recommendation is pending final action by USAID.

     Recommendation No. 7: We recommend that the Chief Information Officer
     provide instructions to program managers to include security requirements in
     the information technology investment process and report them on the Capital
     Asset Plan.



66
Recommendation is pending final action by USAID.

Recommendation No. 8: We recommend that the Chief Information Officer
finalize and approve the following four draft documents: (1) USAID
Information Systems Security Program Plan; (2) USAID Risk Assessment
Manual; (3) USAID Security Incident Handling Response Policy and
Procedures; and (4) USAID Incident Response capability Handbook
Coordinating Draft.

Recommendation is pending final action by USAID.

Recommendation No. 9: We recommend that the Chief Information Officer
document the Agency’s decision on the critical infrastructure protection plan.

Recommendation is pending final action by USAID.

Recommendation No. 10: We recommend that the Chief Information
Officer develop specific performance measures that include timetables and
approaches to address deficiencies in its information security program.

Recommendation is pending final action by USAID.


Report on USAID’S Consolidated
Financial Statements, Internal Controls
And Compliance for Fiscal-Year 2001
Audit Report No. 0-000-02-006-F, February 25, 2002


Recommendation No. 2: We recommend that the USAID Office of
Financial Management:

2.2    Ensure that all new grant agreements and/or amendments are
       submitted to its Cash Management and Payment Division within 10
       business days after their execution.

Recommendation is pending final action by USAID.

Recommendation No. 4: We recommend that the USAID Office of
Financial Management develop and implement a system for the immediate
recognition and reporting of all accounts receivables that are due to USAID at
the end of each accounting period.

Recommendation is pending final action by USAID.




                                                                            67
     Recommendation No. 7: We recommend that USAID’s Chief Financial
     Officer, in collaboration with USAID’s Chief Information Officer, revise the
     remediation plan to identify sufficient resources and remedies to make
     USAID’s systems substantially compliant with the Federal Financial
     Management Improvement Act of 1996.

     Recommendation is pending final action by USAID.




68
UNAUDITED                                           Appendix IV
                                                    Page 1 of 68




              UNITED STATES AGENCY for
            INTERNATIONAL DEVELOPMENT




      Consolidated Financial Statements for Fiscal Year 2002
UNAUDITED                                         Appendix IV
                                                  Page 2 of 68




            This page left intentionally blank.
UNAUDITED                                               Appendix IV
                                                        Page 3 of 68




                                    TABLE OF CONTENTS




Financial Highlights                                            5


Consolidated Financial Statements                               9


Supplemental Financial Information                             67
UNAUDITED                                         Appendix IV
                                                  Page 4 of 68




            This page left intentionally blank.
UNAUDITED                                                                      Appendix IV
                                                                               Page 5 of 68



Financial Highlights
USAID prepares consolidated financial statements that include a Balance Sheet, a Statement of Net
Cost, a Statement of Changes in Net Position, a Statement of Budgetary Resources, and a Statement
of Financing. These statements summarize the financial activity and position of the agency.
Highlights of the financial information presented on the principal statements are provided below.

Balance Sheet
The Balance Sheet presents amounts available for use by USAID (assets) against the amounts owed
(liabilities) and amounts that comprise the difference (net position). Major line items include Fund
Balance with Treasury and Loans Receivable. Fund Balance with Treasury is the net funding
available in the Department of Treasury accounts from which USAID is authorized to make
expenditures and pay liabilities. The majority of Loans Receivables are for loans for which funds
have been disbursed under the Direct Loan Programs.

Assets. The assets showing the most significant change from FY 2001 to FY 2002 are Fund
Balance with Treasury and Loans Receivable. Fund Balance with Treasury increased by about
$684 million, or about 6 percent. This was primarily due to funds received from the Department
of State for the Andean Counter Drug Initiative which is new for FY 2002 and an increase in the
amount of funds transferred from the Department of Agriculture's Commodity Credit
Corporation.

Loans Receivable (net) increased by $464 million in FY 2002. This increase occurred because of a
net decrease in bad debt allowance accruals in FY 2002, the amount of which exceeded net
reductions in Loans Receivable arising from principal and interest collections during the year. The
allowance is the estimated future losses from default and is based on credit risks assigned to
countries by the federal government.

Liabilities and Equity. Credit program liabilities represent 83 percent of USAID’s total
liabilities. Most of these liabilities are reported as both Due to U.S. Treasury and Loan Guarantee
Liabilities. Due to U.S. Treasury represents the cumulative FY 1992 difference between credit
program assets and liabilities. Loan Guarantee liability is comprised of an allowance established
for potential defaults on loan guarantees obligated before FY 1992 and the estimated subsidy
cost of loan guarantees obligated after FY 1991.

Two Credit Program liability line items showing the most significant change in activity from FY
2001 to FY 2002 are the Due to U.S. Treasury and Loan Guarantee Liability. Due to U.S. Treasury
increased by about 11 percent from FY 2001 primarily due to the decrease in bad debt allowance
accruals for pre-1992 Direct Loans. Loan Guarantee Liability decreased 10 percent during FY
2002, resulting from a decrease in estimated future loan defaults on pre-1992 loan guarantees. Both
are calculated in accordance with the Credit Reform Act of 1990.
UNAUDITED                                                                      Appendix IV
                                                                               Page 6 of 68


Federal Accounts Payables increased by $34 million primarily due to increased debt to the U.S.
Departments of Interior, Agriculture, and Health and Human Services. Other Liabilities also
increased by $70.6 million primarily because of the establishment of a new foreign currency
account at the Bosnia Herzegovina mission.

Equity. Cumulative Results of Operations increased from FY 2001 generally because of a change
in accounting principle applied in FY 2002. In prior years, transfer of funds for the Commodity
Credit Corporation was treated as unexpended appropriations. During FY 2002, the U.S. Treasury
determined that USAID should account for the transfer as revolving-type funds not as appropriated-
type funds. Therefore, a total of $484 million was removed from unexpended appropriations to
cumulative results of operations.

Statement of Net Cost
This statement provides the reader with an understanding of the full cost of operating USAID
programs. In FY 2002, approximately 84 percent of all USAID costs incurred were directly related
to support of USAID programs. Costs incurred for the agency’s general operations (e.g., salaries,
training, support for the Office of Inspector General) accounted for approximately 15 percent of the
total USAID cost. Overall, costs increased by 13 percent from FY 2001, which is consistent with
the increase in appropriated funds for additional program and operational activity.

During FY 2002, USAID further improved the reporting accuracy and implemented several
improvements to the Statement of Net Costs. One significant improvement is that expenses
reported by the missions are now directly linked to an agency goal. In prior years, allocations were
used based on mission-wide ratios.

Statement of Changes in Net Position
This statement identifies those items that caused USAID’s net position to change from the
beginning to the end of the reporting period. The most significant change was the increase in
cumulative results of operations. As discussed previously, Cumulative Results of Operations
increased from FY 2001 generally because of a change in accounting principle applied in FY 2002.
In prior years, transfer of funds for the Commodity Credit Corporation was treated as unexpended
appropriations. During FY 2002, the U.S. Treasury determined that USAID should account for the
transfer as revolving-type funds not as appropriated-type funds. Therefore, a total of $484 million
was removed from unexpended appropriations to cumulative results of operations.

Statement of Budgetary Resources
The Statement of Budgetary Resources provides information on how budgetary resources were
made available for the year and what the status of budgetary resources was at year-end. During
Fiscal Year 2002, USAID received over $7.9 billion in direct appropriations, and an additional
$820 million for transferred appropriations. USAID obligated over 86 percent of all available
budgetary resources for the year. Among the unobligated funds, over 97 percent is available for
new programming and obligating in future years.
UNAUDITED                                                                   Appendix IV
                                                                            Page 7 of 68


Appropriations Received from the U.S. Treasury increased by 13% from FY 2001. This was
primarily because of increased funding in the following major appropriations:

S$715 million for the Economic Support Fund
S$581 million for the Child Survival and Health Programs
S$193 million for the Assistance for the Independent States of the Former Soviet Union.

Consequently, the increase in appropriated funds also caused increases in the Obligations
Incurred and Net Outlays.

Statement of Financing
The statement of Financing reconciles net obligations as reported on the Statement of Budgetary
Resources to net costs reported on the Statement of Net Costs. Generally, net obligations
increased by 40 percent from FY 2001, due to increased appropriations received as discussed
above. Changes in the Credit Program collections and an increase in undelivered orders unpaid
from FY 2001 account for a significant portion of the $1.1 billion difference in total resources
used to finance items not part of the net cost of operations.

Limitations to the Financial Statements
The financial statements have been prepared to report the financial position and results of
operations of USAID, pursuant to the requirements of 31 U.S.C. 3515(b). While the statements
have been prepared from the books and records of USAID, in accordance with generally
accepted accounting principles (GAAP) for Federal entities and the formats prescribed by the
Office of Management and Budget (OMB), the statements are in addition to the financial reports
used to monitor and control budgetary resources which are prepared from the same books and
records. The statements should be read with the realization that USAID is a component of the
U.S. Government, a sovereign entity.
UNAUDITED                                        Appendix IV
                                                 Page 8 of 68




            This page intentionally left blank
AUDITED                                                                                  Appendix IV
                                                                                         Page 9 of 68
                                     U.S. Agency for International Development
                                      CONSOLIDATED BALANCE SHEET
                                         As of September 30, 2002 and 2001
                                                   (in thousands)

                                                                               2002                   2001
ASSETS                                                                   (Audited)                (Audited)
   Intragovernmental
          Fund Balance with Treasury (Note 2)                             $      11,897,972   $       11,214,407
          Accounts Receivable (Note 3)                                              496,369              423,577
          Other (Note 4)                                                             46,527               76,838
   Total Intragovernmental                                                       12,440,868           11,714,822

          Cash and Other Monetary Assets (Note 5)                                   262,088              213,177
          Accounts Receivable, Net (Note 3)                                          31,116               31,017
          Loans Receivable, Net (Note 6)                                          5,997,453            5,533,169
          Inventory and Related Property (Note 7)                                    20,241               26,099
          General Property, Plant, and Equipment, Net (Note 8 and 9)                 54,449               45,373
          Advances and Prepayments (Note 4)                                         329,762              270,237
    Total Assets                                                                 19,135,977           17,833,894
LIABILITIES (Note 16)
   Intragovernmental
          Accounts Payable (Note 10)                                                 69,572               35,496
          Debt (Note 11)                                                             16,744               64,528
          Due to U.S. Treasury (Note 11)                                          5,859,175            5,278,463
          Other (Note 12, 13, and 14)                                                50,253               30,872
   Total Intragovernmental                                                        5,995,744            5,409,359

          Accounts Payable (Note 10)                                              1,101,961            1,160,274
          Loan Guarantee Liability (Note 6)                                       1,048,751            1,167,235
          Federal Employees and Veteran's Benefits (Note 14)                         28,251               30,905
          Other (Note 12)                                                           317,635              266,437
   Total Liabilities                                                              8,492,342            8,034,210
   Commitments and Contingencies (Note 15)
NET POSITION
   Unexpended Appropriations                                                     10,065,290            9,789,358
   Cumulative Results of Operations                                                 578,345               10,326
   Total Net Position                                                            10,643,635            9,799,684

Total Liabilities and Net Position                                       $       19,135,977   $       17,833,894

                      The accompanying footnotes are an integral part of these statements
                                                                                       Appendix IV
                                                                                       Page 10 of 68
                               U.S. Agency for International Development
                           CONSOLIDATED STATEMENT OF NET COST
                            For the years ended September 30, 2002 and 2001
                                             (in thousands)
Costs:                                                                2002                        2001
Goal 1: Broad-Based Economic Growth and Agricultural            (Audited)                   (Unaudited)
Development
         Intragovernmental                                         $        132,431         $       142,665
         With the public                                                  2,808,027               2,969,869
                   Total                                                  2,940,458               3,112,534
         Less earned revenues                                               (59,673)                 (9,970)
         Net program costs                                                2,880,785               3,102,564
Goal 2: Strengthen Democracy and Good Governance
           Intragovernmental                                                60,947                  29,678
           With the public                                                 641,207                 666,444
                     Total                                                 702,154                 696,122
           Less earned revenues                                            (11,210)
           Net program costs                                               690,944                 696,122
Goal 3: Human Capacity Built Through Education and Training
          Intragovernmental                                                 75,921                  18,059
          With the public                                                  737,461                 349,582
                    Total                                                  813,382                 367,641
          Less earned revenues                                              (8,876)                      -
          Net program costs                                                804,506                 367,641
Goal 4: Stabilizing World Population and Protecting Human Health
           Intragovernmental                                                 82,005                  51,124
           With the public                                                1,472,830               1,026,046
                     Total                                                1,554,835               1,077,170
           Less earned revenues                                             (48,687)                (14,611)
           Net program costs                                              1,506,148               1,062,559
Goal 5: Protect the Environment for Long-Term Sustainability
          Intragovernmental                                                 38,791                  25,032
          With the public                                                  498,318                 434,982
                     Total                                                 537,109                 460,014
          Less earned revenues                                             (24,860)                 (5,805)
          Net program costs                                                512,249                 454,209
Goal 6: Promote Humanitarian Assistance
          Intragovernmental                                                  70,924                  38,269
          With the public                                                 1,538,770               1,319,788
                    Total                                                 1,609,694               1,358,057
          Less earned revenues                                              (81,077)                (39,421)
          Net program costs                                               1,528,617               1,318,636
       Less earned revenues not attributed to programs                       (5,890)               (12,196)
       Net Cost of Operations (Note 17)                            $      7,917,359         $     6,989,535

                      The accompanying footnotes are an integral part of these statements
     AUDITED                                                                                   Appendix IV
                                                                                               Page 11 of 68
                                     U.S. Agency for International Development
                           CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
                                  For the years ended September 30, 2002 and 2001
                                                   (in thousands)

                                                          2002            2002                  2001               2001
                                                       Cumulative      Unexpended            Cumulative         Unexpended
                                                        Results of     Appropriatio           Results of        Appropriatio
                                                       Operations           ns               Operations              ns
                                                     (Audited)        (Audited)            (Audited)           (Audited)
Beginning Balances                                   $      10,326    $ 9,789,358          $     (13,169)      $ 9,989,029
Prior period adjustments (Note 18)                         483,897         (483,782)              11,040                   -
Beginning Balances, as adjusted                            494,223        9,305,576               (2,129)          9,989,029

  Budgetary Financing Sources:                                             7,936,485                                7,035,798
     Appropriations Received                                                 213,366                                 (271,119)
     Appropriations transferred-in/out                            -          (70,739)                      -          (22,657)
     Other adjustments (recissions, etc)                  7,319,398       (7,319,398)             6,941,693        (6,941,693)

     Appropriations used                                   104,919                                  47,917
     Donations and forfeitures of cash                     565,633                                        -
     and cash equivalents
     Transfers-in/out without reimbursement
  Other Financing Sources:
     Transfers-in/out without reimbursement                 (1,928)
     Imputed financing from costs absorbed by               13,459                                  12,380
     others
  Total Financing Sources                                 8,001,481         759,714               7,001,990         (199,671)

  Net Cost of Operations                                  7,917,359                               6,989,535

Ending Balances                                      $     578,345    $ 10,065,290         $        10,326     $   9,789,358




                            The accompanying footnotes are an integral part of these statements
AUDITED                                                                                 Appendix IV
                                                                                        Page 12 of 68
                              U.S. Agency for International Development
                        COMBINED STATEMENT OF BUDGETORY RESOURCES
                               For the period ended September 30, 2002
                                            (in thousands)

                                                           2002           2002                2001            2001
                                                                         Credit                              Credit
                                                                        Program                             Program
                                                       Budgetary       Financing          Budgetary        Financing
Budgetary Resources                                    (Audited)      (Audited)          (Audited)        (Audited)

Budget Authority
       Appropriations Received                         $ 7,971,616    $          -       $ 7,079,139      $            -
       Borrowing Authority (Note 19)                             -             465
       Net Transfers                                       669,622               -            (221,876)                -
       Other                                                32,525               -                    -                -
  Total Budget Authority                                 8,673,763             465           6,857,263                 -
Unobligated Balance:
       Beginning of Period                               1,769,666         796,958           1,427,179         801,380
       Net Transfers, Actual                                (4,599)              -                   -               -
  Total Unobligated Balance                              1,765,067         796,958           1,427,179         801,380
Spending Authority from Offsetting Collections:
  Earned
       Collected                                         1,029,293         129,867            954,775          113,985
       Receivable from Federal Sources                        (678)        (11,327)            (5,799)               -
  Change in Unfilled Customer Orders
       Advance Received                                           -               -                331                -
  Subtotal                                               1,028,615         118,540             949,307         113,985
Recoveries of Prior Year Obligations                       128,325           5,904             105,605                -
Permanently Not Available                                 (987,596)        (48,249)           (934,135)        (51,957)
Total Budgetary Resources                               10,608,174         873,618           8,405,219         863,408

Status of Budgetary Resources:

Obligations Incurred
  Direct (Note 19)                                       9,012,090          74,639           6,737,588          66,450
Unobligated Balance, Available                           1,544,909         793,076           1,653,948         796,958
Unobligated Balance, Unavailable                            51,175           5,903              13,683               -
Total Status of Budgetary Resources                     10,608,174         873,618           8,405,219         863,408

Relationship of Obligations to Outlays:

Obligated Balance, Net, Beginning of Period (Note        8,887,092          14,665           9,318,003           8,311
19)
Obligated Balance, Net, End of Period:
  Accounts Receivable                                       (9,987)         11,327              (3,706)              -
  Undelivered Orders                                     8,341,194          14,733           7,980,270          14,091
  Accounts Payable                                       1,100,015             808           1,232,202             573

Outlays:
  Disbursements                                          8,340,309          67,860           6,746,601           60,095
  Collections                                           (1,029,292)       (129,868)           (955,106)       (113,986)
  Subtotal                                               7,311,017         (62,008)          5,791,495          (53,891)
Less: Offsetting Receipts                                         -
Net Outlays                                            $ 7,311,017    $    (62,008)      $ 5,791,495      $    (53,891)

                       The accompanying footnotes are an integral part of these statements
                                                                                                      Appendix IV
                                                                                                      Page 13 of 68
                                       U.S. Agency for International Development
                                   CONSOLIDATED STATEMENT OF FINANCING
                                    For the years ended September 30, 2002 and 2001
                                                     (in thousands)

                                                                                    2002 (Audited)       2001 (Unaudtied)
Resources Used to Finance Activities:
    Budgetary Resources Obligated
        Obligations Incurred (Note 21)                                                   $9,086,729            $6,804,038
          Appropriations transferred to/from other agencies (net)                           117,337
        Total Obligations Incurred                                                        9,204,066             6,804,038
           Less: Spending authority from offsetting collections and                     (1,147,155)            (1,068,761)
           recoveries (Note 21)
           Spending authority transferred to/from other agencies (net)                       3,503
           Total Spending authority from offsetting collections and                     (1,143,652)            (1,068,761)
           recoveries
         Net Obligations                                                                 8,060,414              5,735,277
     Other Resources
         Donated and Credit Program Revenue                                                (74,574)             (174,440)
         Imputed Financing From Costs Absorbed by Others                                    13,459                12,380
         Net other resources used to finance activities                                    (61,115)             (162,060)
Total resources used to finance activities                                               7,999,299              5,573,217
Resources Used to Finance Items not Part of the Net Cost of Operations:

     Change in budgetary resources obligated for goods, services and benefits           (1,111,255)              264,667
     ordered but not yet provided
     Resources that fund expenses recognized in prior periods                                 (995)                (6,007)
     Budgetary offsetting collections and receipts that do not affect net cost of
     operations
          Credit program collections which increase liabilities for loan                   959,754              1,235,045
          guarantees or allowances for subsidy
          Other                                                                               6,275
     Resources that finance the acquisition of assets                                        33,413               (17,372)
Total resources used to finance items not part of net cost of operations                  (112,808)             1,476,333
Total resources used to finance net cost of operations                                    7,886,491             7,049,550
Components of the Net Cost of Operations that will not Require or Generate
Resources in the Current Period:
     Components Requiring or Generating Resources in Future Periods                          1,206                  1,086
     (Note 21): Increase in annual leave liability
          Upward/Downward reestimates of credit subsidy expense                            (22,947)              (62,202)
          Increase in exchange revenue receivable from the public                           39,221
     Total components of net cost of operations that will require or generate               17,480               (61,116)
     resources in future periods
     Components not Requiring or Generating Resources
          Depreciation and Amortization                                                     10,525                  6,863
          Revaluation of assets or liabilities                                              (2,056)                     -
          Other                                                                              4,919                 (5,761)
Total components of net cost of operations that will not require or generate                13,388                  1,101
resources
Total components of net cost of operations that will not require or generate                30,868               (60,015)
resources in the current period
Net Cost of Operations                                                              $    7,917,359      $        6,989,535

                          The accompanying footnotes are an integral part of these statements
AUDITED   Appendix IV
          Page 14 of 68
AUDITED   Appendix IV
          Page 15 of 68
AUDITED   Appendix IV
          Page 16 of 68
AUDITED   Appendix IV
          Page 17 of 68
AUDITED   Appendix IV
          Page 18 of 68
AUDITED                                                                     Appendix IV
                                                                            Page 19 of 68


USAID FY 2002 FOOTNOTE TO THE FINANCIAL STATEMENTS

NOTE 1. SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES

 A.    Basis of Presentation

These financial statements report USAID’s financial position and results of operations. They
have been prepared using USAID’s books and records in accordance with Agency accounting
policies, the most significant of which are summarized in this note. The statements are presented
in accordance with the applicable form and content requirements of OMB Bulletin 01-09, Form
and Content of Agency Financial Statements, and the Government Management Reform Act of
1994.

USAID accounting policies follow generally accepted accounting principles for the Federal
government, as recommended by the Federal Accounting Standards Advisory Board (FASAB).
The FASAB has been recognized by the American Institute of Certified Public Accountants
(AICPA) as the official accounting standard set for the Federal government. These standards
have been agreed to and published by the Director of the Office of Management and Budget, the
Secretary of the Treasury, and the Comptroller General. Federal accounting standards are based
on the following hierarchy:

   1. FASAB Statements and Interpretations as well as AICPA and Financial Accounting
      Standards Board (FASB) pronouncements if made applicable to Federal governmental
      entities by a FASAB Statement or Interpretation
   2. FASAB Technical Bulletins and the following pronouncements if specifically made
      applicable to Federal governmental entities by the AICPA and cleared by the FASAB:
      AICPA Industry Audit and Accounting Guides and AICPA Statements of Position
   3. AICPA Accounting Standards Executive Committee (AcSEC) Practice Bulletins if
      specifically made applicable to Federal governmental entities and cleared by the FASAB
      as well as Technical Releases of the Accounting and Auditing Policy Committee of the
      FASAB
   4. Implementation guides published by the FASAB staff and practices that are widely
      recognized and prevalent in the Federal government
   5. Other accounting literature, including FASAB Concept Statements; pronouncements in
      categories 1-4 above when not specifically made applicable to Federal governmental
      entities; FASB Concepts Statements; GASB Statements, Interpretations, Technical
      Bulletins, and Concepts Statements; AICPA Issues Papers; International Accounting
      Standards of the International Accounting Standards Committee; pronouncements of
      other professional associations or regulatory agencies; AICPA Technical Practice Aids;
      and accounting textbooks, handbooks, and articles
AUDITED                                                                    Appendix IV
                                                                           Page 20 of 68


USAID FY 2002 FOOTNOTE TO THE FINANCIAL STATEMENTS

NOTE 1. SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES - Continued

B.   Reporting Entity

Established in 1961 by President John F. Kennedy, USAID is the independent U.S. Government
agency that provides economic development and humanitarian assistance to advance U.S.
economic and political interests overseas.

Programs

The financial statements reflect USAID’s program activities, shown by appropriation in the
financial statements, which include such programs as the Economic Support Fund, Development
Assistance, Assistance for the New Independent States of the Former Soviet Union, Special
Assistance Initiatives, International Disaster Assistance, Child Survival and Disease, Central
America and the Caribbean Emergency Disaster Recovery Fund, Transition Initiatives, and
Direct and Guaranteed Loan Programs. This classification is consistent with the Budget of the
United States

Economic Support Fund

Programs funded through this account provide economic assistance to select countries in support
of efforts to promote stability and U.S. security interests in strategic regions of the world.

Development Assistance

This account provides economic resources to developing countries with the aim of bringing the
benefits of development to the poor. DA-funded programs promote broad-based, self-sustaining
economic growth and support initiatives intended to stabilize population growth, protect the
environment and foster increased democratic participation in developing countries. DA resources
are concentrated in those areas in which the United States has special expertise and which
promise the greatest opportunity for the poor to better their lives.
Assistance for the New Independent States of the Former Soviet Union

This account provides funds for assistance to the independent states that emerged from the
former Soviet Union. These funds support U.S. foreign policy goals of consolidating improved
U.S. security; building a lasting partnership with the New Independent States; and providing
access to each other’s markets, resources, and expertise.
AUDITED                                                                      Appendix IV
                                                                             Page 21 of 68


USAID FY 2002 FOOTNOTE TO THE FINANCIAL STATEMENTS

NOTE 1. SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES - Continued

Special Assistance Initiatives

These initiatives support special assistance activities. The majority of such funding was for
democratic and economic restructuring in Central and Eastern European countries consistent
with the objectives of the Support for East European Democracy (SEED) Act. All SEED Act
programs support one or more of the following strategic objectives: promoting broad-based
economic growth with an emphasis on privatization, legal and regulatory reform and support for
the emerging private sector; encouraging democratic reforms; and improving the quality of life
including protecting the environment and providing humanitarian assistance.

International Disaster Assistance

International Disaster Assistance funds provide relief, rehabilitation, and reconstruction
assistance to foreign countries struck by disasters, such as famines, floods, hurricanes and
earthquakes. This account also provides assistance in disaster preparedness, and prevention and
mitigation.

Child Survival and Disease

This account provides economic resources to developing countries to support programs to
improve infant and child nutrition, with the aim of reducing infant and child mortality rates; to
reduce HIV transmission and the impact of the HIV/AIDS pandemic in developing countries; to
reduce the threat of infectious diseases of major public health importance such as polio and
malaria; and to expand access to quality basic education for girls and women.
Central America and the Caribbean Emergency Disaster Recovery Fund

This account was established by a FY 1999 emergency supplemental bill and is for necessary
expenses to provide relief and reconstruction after natural disasters in Central America, South
America, and Colombia.

Transition Initiatives

This account funds humanitarian programs that provide post-conflict assistance to victims of
natural and man-made disasters. Until FY 2001, this type of assistance was funded under the
International Disaster Assistance account.
AUDITED                                                                      Appendix IV
                                                                             Page 22 of 68


USAID FY 2002 FOOTNOTE TO THE FINANCIAL STATEMENTS

NOTE 1. SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES - Continued

Direct and Guaranteed Loans:

•   Direct Loan
    These loans are authorized under Foreign Assistance Acts, various predecessor agency
    programs, and other foreign assistance legislation. Direct Loans are issued in both U.S.
    dollars and the currency of the borrower. Foreign currency loans made “with maintenance of
    value” place the risk of currency devaluation on the borrower, and are recorded in equivalent
    U.S. dollars. Loans made “without maintenance of value” place the risk of devaluation on the
    U.S. Government, and are recorded in the foreign currency of the borrower.
•   Urban and Environmental
    The Urban and Environmental (UE) program, formerly the Housing Guarantee Program,
    extends guaranties to U.S. private investors who make loans to developing countries to assist
    them in formulating and executing sound housing and community development policies that
    meet the needs of lower income groups.
•   Micro and Small Enterprise Development
    The Micro and Small Enterprise Development (MSED) Program supports private sector
    activities in developing countries by providing direct loans and loan guarantees to support
    local micro and small enterprises.
•   Israeli Loan Guarantee
    Congress enacted the Israeli Loan Guarantee Program in Section 226 of the Foreign
    Assistance Act to support the costs for immigrants resettling in Israel from the former Soviet
    Union, Ethiopia, and other countries. Under this program, the U.S. Government guaranteed
    the repayment of up to $10 billion in loans from commercial sources, to be borrowed in $2
    billion annual increments. Borrowing was completed under the program during Fiscal Year
    1999, with approximately $9.2 billion being guaranteed. Guarantees are made by USAID on
    behalf of the U.S. Government, with funding responsibility and basic administrative
    functions resting with USAID.
•   Ukraine Loan Guarantee
    The Ukraine Export Credit Insurance Program was established with the support of the
    Export-Import Bank of the United States to assist Ukrainian importers of American goods.
    The program commenced operations in Fiscal Year 1996 and expired in Fiscal Year 1999.
AUDITED                                                                       Appendix IV
                                                                              Page 23 of 68


USAID FY 2002 FOOTNOTE TO THE FINANCIAL STATEMENTS

NOTE 1. SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES - Continued

•   Development Credit Authority
    The first obligations for USAID’s new Development Credit Authority (DCA) were made in
    FY 1999. DCA allows missions and other offices to use loans and loan guarantees to achieve
    their development objectives when it can be shown that: 1) the project generates enough
    revenue to cover the debt service, including USAID fees; 2) there is at least 50% risk-sharing
    with a private-sector institution;and 3) the DCA guarantee addresses a financial market
    failure in-country and does not “crowd-out” private sector lending. DCA can be used in any
    sector and by any USAID operating unit whose project meets the DCA criteria. DCA
    projects are approved by the Agency Credit Review Board and the Chief Financial Officer.
Fund Types

The accompanying consolidated financial statements for USAID include the accounts of all
funds under USAID’s control. The Agency maintains 28 general fund appropriations, 1 special
fund, 13 revolving funds, 3 trust funds, and 5 deposit funds, 2 receipt accounts, and 4 budget
clearing accounts.

General fund appropriations and the Special fund are used to record financial transactions under
Congressional appropriations or other authorization to spend general revenue.

Revolving funds are established by law to finance a continuing cycle of operations, with receipts
derived from such operations usually available in their entirety for use by the fund without
further action by Congress.

Trust funds are credited with receipts generated by the terms of the trust agreement or statute. At
the point of collection, these receipts are unavailable, depending upon statutory requirements, or
available immediately.

Deposit funds are established for: 1) amount received for which USAID is acting as a fiscal
agent or custodian; 2) unidentified remittances; 3) monies withheld from payments for goods or
services received; and 4) monies held waiting distribution on the basis of legal determination.
AUDITED                                                                       Appendix IV
                                                                              Page 24 of 68


USAID FY 2002 FOOTNOTE TO THE FINANCIAL STATEMENTS

NOTE 1. SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES - Continued

C.   Basis of Accounting

Transactions are recorded on both an accrual and budgetary basis. Under the accrual basis,
revenues are recognized when earned and expenses are recognized when a liability is incurred,
without regard to receipt or payment of cash. Budgetary accounting facilitates compliance with
legal constraints on, and controls of, the use of federal funds.
The accompanying Balance Sheet, Statement of Net Cost, and Statement of Changes in Net
Position have been prepared on an accrual basis. The Statement of Budgetary Resources has
been prepared in accordance with budgetary accounting rules. Finally, the Statement of
Financing has been prepared to reconcile budgetary to financial (proprietary) accounting
information.

D. Budgets and Budgetary Accounting

The components of USAID’s budgetary resources include current budgetary authority (i.e.,
appropriations and borrowing authority) and unobligated balances remaining from multi-year
and no-year budget authority received in prior years. Budget authority is the authorization
provided by law to enter into financial obligations that result in immediate or future outlays of
federal funds. Budgetary resources also include reimbursement and other income (i.e., spending
authority from offsetting collections credited to an appropriation of fund account) and
adjustments (i.e., recoveries of prior year obligations).

Pursuant to Public Law 101-510, unobligated balances associated with appropriations that expire
at the end of the fiscal year remain available for obligation adjustments, but not new obligations,
until that account is canceled. When accounts are canceled five years after they expire, amounts
are not available for obligations or expenditure for any purpose and are returned to the
Department of Treasury.

Pursuant to Section 511 of USAID’s Appropriations Act for fiscal years 1994 through 1999, or
Section 517 for USAID’s Appropriations Act for fiscal years 1987 through 1993, funds
appropriated for certain purposes under the Foreign Assistance Act of 1961, as amended, shall
remain available until expended if such funds are initially obligated within their period of
availability.
AUDITED                                                                     Appendix IV
                                                                            Page 25 of 68


USAID FY 2002 FOOTNOTE TO THE FINANCIAL STATEMENTS

NOTE 1. SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES - Continued

E.   Revenues and Other Financing Sources

USAID receives the majority of its funding through Congressional appropriations—annual,
multi-year, and no-year appropriations—that may be used within statutory limits. Appropriations
are recognized as revenues at the time the related program or administrative expenses are
incurred. Appropriations expended for capitalized property and equipment are not recognized as
expenses. In addition to funds warranted directly to USAID, the Agency also receives allocation
transfers from the Commodity Credit Corporation and the Department of State.

Additional financing sources for USAID’s various credit programs and trust funds include
amounts obtained through collection of guaranty fees, interest income on rescheduled loans,
penalty interest on delinquent balances, permanent indefinite borrowing authority from the U.S.
Treasury, proceeds from the sale of overseas real property acquired by USAID, and advances
from foreign governments and international organizations.

Revenues are recognized as financing sources to the extent that they were payable to USAID
from other agencies, other governments and the public in exchange for goods and services
rendered to others.

F.   Fund Balances with the U.S. Treasury

Cash receipts and disbursements are processed by the U.S. Treasury. The balances with Treasury
are primarily appropriated funds that are available to pay current liabilities and finance
authorized purchase commitments, but they also include revolving, deposit, and trust funds.

G.     Foreign Currency

The Direct Loan Program has foreign currency funds, which are used to disburse loans in certain
countries. Those balances are reported at the U.S. dollar equivalents using the exchange rates
prescribed by the U.S. Treasury. A gain or loss on translation is recognized for the change in
valuation of foreign currencies at year-end.

H.   Accounts Receivable

Accounts receivable consist of amounts due mainly from foreign governments but also from
other Federal agencies and private organizations. USAID regards amounts due from other
Federal agencies as 100 percent collectible. The Agency establishes an allowance for
uncollectible accounts receivable for non-loan or revenue generating sources that have not been
collected for a period of over one year.
AUDITED                                                                        Appendix IV
                                                                               Page 26 of 68


USAID FY 2002 FOOTNOTE TO THE FINANCIAL STATEMENTS

NOTE 1. SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES - Continued

I.   Loans Receivable

Loans are accounted for as receivables after funds have been disbursed. For loans obligated
before October 1, 1991 (the pre-credit reform period), loan principal, interest, and penalties
receivable are reduced by an allowance for estimated uncollectible amounts. The allowance is
estimated based on a method prescribed by OMB that takes into account country risk and
projected cash flows.

For loans obligated on or after October 1, 1991, the loans receivable are reduced by an allowance
equal to the present value of the subsidy costs (due to the interest rate differential between the
loans and Treasury borrowing, the estimated delinquencies and defaults net of recoveries, the
offset from fees, and other estimated cash flows) associated with these loans. This allowance is
re-estimated when necessary and changes reflected in the operating statement.

Loans are made in both U.S. dollars and foreign currencies. Loans extended in foreign currencies
can be with or without “maintenance of value” (MOV). Those with MOV place the currency
exchange risk upon the borrowing government; those without MOV place the risk on USAID.
Foreign currency exchange gain or loss is recognized on those loans extended without MOV, and
reflected in the net credit programs receivable balance.

Credit program receivables also include origination and annual fees on outstanding guarantees,
interest on rescheduled loans and late charges. Claims receivables (subrogated and rescheduled)
are due from foreign governments as a result of defaults for guaranteed loans. Receivables are
stated net of an allowance for uncollectible accounts, determined using a country-specific
identification methodology.

While estimates of uncollectible loans and interest are made using methods prescribed by OMB,
the final determination as to whether a loan is collectible is also affected by actions of other U.S.
Government agencies.

J.   Advances and Prepayments

Funds disbursed in advance of incurred expenditures are recorded as advances. Most advances
consist of funds disbursed under letters of credit to contractors and grantees. The advances are
liquidated and recorded as expenses upon receipt of expenditure reports from the recipients.
AUDITED                                                                       Appendix IV
                                                                              Page 27 of 68


USAID FY 2002 FOOTNOTE TO THE FINANCIAL STATEMENTS

NOTE 1. SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES - Continued

K.   Inventory and Related Property

USAID’s inventory and related property is comprised of operating materials and supplies. Some
operating materials and supplies are held for use and consist mainly of computer paper and other
expendable office supplies not in the hands of the user. USAID also has materials and supplies in
reserve for foreign disaster assistance stored at strategic sites around the world. These include
such supplies as tents, vehicles, and water purification units. The Agency also has contraceptive
supplies stored at several sites.

USAID’s office supplies are deemed items held for use because they are tangible personal
property to be consumed in normal operations. Agency supplies held in reserve for future use are
not readily available in the market, or there is more than a remote chance that the supplies will be
needed, but not in the normal course of operations. Their valuation is based on cost and they are
not considered “held for sale.” USAID has no supplies categorizable as excess, obsolete, or
unserviceable operating materials and supplies.

L.   Property, Plant and Equipment

USAID capitalizes all property, plant and equipment that has an acquisition cost of $25,000 or
greater and a useful life of two or more years. Acquisitions that do not meet these criteria are
recorded as operating expenses. Assets are capitalized at historical cost and depreciated using the
straight-line method. Real property is depreciated over 20 years, nonexpendable personal
property is depreciated over 3 to 5 years, and capital leases are depreciated according to the
terms of the lease. The Agency operates land, buildings, and equipment that are provided by the
General Services Administration. Rent for this property is expensed. Internal use software that
has development costs of $300,000 or greater is capitalized. Deferred maintenance amounts are
immaterial with respect to the financial statements.

M.   Liabilities

Liabilities represent the amount of monies or other resources that are likely to be paid by USAID
as the result of transactions or events that have already occurred. However, no liability can be
paid by the Agency without an appropriation or borrowing authority. Liabilities for which an
appropriation has not been enacted are therefore classified as liabilities not covered by budgetary
resources (unfunded liabilities), and there is no certainty that the appropriations will be enacted.
Also, these liabilities can be abrogated by the U.S. Government, acting in its sovereign capacity.
AUDITED                                                                       Appendix IV
                                                                              Page 28 of 68


USAID FY 2002 FOOTNOTE TO THE FINANCIAL STATEMENTS

NOTE 1. SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES - Continued

N.   Liabilities for Loan Guarantees

The Credit Reform Act (CRA) of 1990, which became effective on October 1, 1991, has
significantly changed the manner in which USAID’s loan programs finance their activities. The
main purpose of CRA was to more accurately measure the cost of Federal credit programs and to
place the cost of such programs on a basis equivalent to other Federal spending. Consequently,
commencing in FY 1992, the loan program’s funding for activities changed so that activities are
funded through direct appropriation provided for that year only, rather than through cumulative
appropriations granted in prior years and accumulated under the Revolving Fund.

For USAID’s loan guarantee programs, when guarantee commitments are made, the program
records a guarantee reserve in the program account. This reserve is based on the present value of
the estimated net cash outflows to be paid by the program as a result of the loan guarantees,
except for administrative cost, less the net present value of all revenues to be generated from
those guarantees. When the loans are disbursed, the program transfers from the program account
to the financing account the amount of the subsidy cost related to those loans. The amount of the
subsidy cost transferred, for a given loan, is proportionate to the amount of the total loan
disbursed.

For loan guarantees made before the CRA, liabilities for loan guarantees for pre-1992 loans
represent unfunded liabilities. Footnote 5 presents the unfunded amounts separate from the post-
1991 liabilities. The amount of unfunded liabilities also represents a future funding requirement
to USAID. The liability is calculated using a reserve methodology that is similar to OMB
prescribed method for post-1991 loan guarantees.

O.   Annual, Sick, and Other Leave

Annual leave is accrued as it is earned and the accrual is reduced as leave is taken. Each year, the
balance in the accrued annual leave account is adjusted to reflect current pay rates. To the extent
that current or prior year appropriations are not available to fund annual leave earned but not
taken, funding will be obtained from future financing sources. Sick leave and other types of
leave are expensed as taken.

P.   Retirement Plans and Post Employment Benefits

USAID employees are covered by one of four retirement plans. There are two Civil Service
plans, the Civil Service Retirement System (CSRS) and Federal Employees Retirement System
(FERS); and two Foreign Service plans, the Foreign Service Retirement and Disability System
(FSRDS) and Foreign Services Pension System (FSPS).
AUDITED                                                                         Appendix IV
                                                                                Page 29 of 68


USAID FY 2002 FOOTNOTE TO THE FINANCIAL STATEMENTS

NOTE 1. SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES - Continued

The Agency contributes approximately 7.5 percent of an employee’s gross salary for CSRS and
FSRDS, and approximately 24 percent of an employee’s gross salary for FERS and FSPS.

Employees may elect to participate in the Thrift Savings Plan (TSP). Under this plan, FERS and
FSPS employees may elect to have up to 12 percent, but not to exceed $11,000, of gross earnings
withheld from their salaries and receive matching contributions from a minimum of one percent
to a maximum of 5 percent. CSRS and FSRDS employees may elect to have up to 7 percent of
gross earnings withheld from their salaries, but they do not receive matching contributions.

USAID funds a portion of employee post employment benefits (PEB) and makes necessary
payroll withholdings. It has no liability for future payments, nor is it responsible for reporting the
assets, accumulated plan benefits, or unfunded liabilities, if any, applicable to its employees for
these programs. Reporting of such amounts is the responsibility of the Office of Personnel
Management and the Federal Retirement Thrift Investment Board. Current year operating
expenses are charged for the full amount of employer PEB costs with the unfunded portion being
charged to Other Revenue Sources-Imputed Financing in accordance with SFFAS Numbers 5
and 7.

Foreign Service National and Third County Nationals at overseas posts who were hired prior to
January 1, 1984, may be covered under CSRS. Employees hired after that date are covered under
a variety of local governmental plans in compliance with host country laws and regulations. In a
limited number of cases where no plans are regulated by the host country or where such plans are
inadequate, the employees are covered by a privately managed pension plan to conform to
prevailing practices by employers.

The Foreign Service National Separation Pay Trust Fund (FSNSPTF) was established in 1991 by
Public aw 102-138 to finance separation payments for eligible individuals, primarily Foreign
Service Nationals employed by USAID. The FSNSPTF finances separation liabilities to
employees who resign, retire, or lose their jobs due to a reduction-in-force; and is applicable only
in those countries that, due to local law, require a lump sum voluntary payment based on years of
service.
AUDITED                                                                         Appendix IV
                                                                                Page 30 of 68


USAID FY 2002 FOOTNOTE TO THE FINANCIAL STATEMENTS

NOTE 1. SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES - Continued

Q.    Net Position

Net position is the residual difference between assets and liabilities. It is composed of
unexpended appropriations and cumulative results of operations.

•    Unexpended appropriations are the portion of the appropriations represented by undelivered
     orders and unobligated balances.

•    Cumulative results of operations are also part of net position. This account reflects the net
     difference between 1) expenses and losses and 2) financing sources, including
     appropriations, revenues and gains, since the inception of the activity.

R.    Non-entity Assets

Non-entity fund balances are amounts in Deposit Fund accounts. These include such items as:
funds received from outside sources where the government acts as fiscal agent; monies the
government has withheld awaiting distribution based on legal determination; and unidentified
remittances credited as suspense items outside the budget. For USAID, non-entity assets are
minimal in amount and as reflected in Note 3, comprised solely of accounts receivables, net of
allowances.

Program Costs

Program costs are presented on the Statement of Net Cost by Agency goal. The six Agency goals
that support USAID objectives are:

•    Broad-based economic growth and agricultural development encouraged
•    Improve basic education
•    Protect the global environment
•    Stabilize world population and protect human health
•    Strengthen democracy and good governance
•    Save lives, reduce suffering associated with natural or man-made disasters, and reestablish
     conditions necessary for political and/or economic development
Mission-related program expenses by goal area are obtained from the Mission Accounting and Control
system (MACS). USAID/Washington program expenses by goal area are obtained directly from Phoenix.
A cost allocation model is used to distribute Management Bureau operating costs to specific goals.
Expenses related to Credit Reform and revolving funds are directly applied to specific Agency goals
based on their objectives. Trust funds and remaining operating expenses are allocated based on
established program and operating ratios.
AUDITED                                                                                    Appendix IV
                                                                                           Page 31 of 68


USAID FY 2002 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 2. FUND BALANCES WITH TREASURY (In Thousands)

Fund Balances with Treasury as of September 30, 2002 and 2001 consisted of the following:

Fund Balances                                                2002                  2001

Trust Funds                                            $        17,631       $         14,429
Revolving Funds                                                948,819             1,012,026
Appropriated Funds                                          10,947,817            10,245,763
Other Funds                                                   (16,295)              (57,811)

Total                                                  $    11,897,972       $    11,214,407

Status of Fund Balance:
                                                            2002                   2001
Unobligated Balance
Available                                              $     2,264,796       $     2,499,633
Unavailable                                                     14,487                13,679
Obligated Balance Not Yet Disbursed                          9,618,689             8,701,095
Total                                                  $    11,897,972       $    11,214,407


As of September 30, 2002 there was a cash reconciliation difference of $45.1 million between USAID and the
Department of Treasury’s Fund Balances. The difference as of September 30, 2001 was $38 million. For FY 2002
and FY 2001 reporting purposes, USAID adjusted its fund balance downward by these differences to equal the
Department of Treasury’s fund balance. By adjusting USAID’s fund balance to equal Treasury’s fund balance, there
is consistency between various published reports. Also, based on past experience, the Department of Treasury’s
balances are more accurate and the differences are usually cleared when USAID processes the required
disbursements.

The $45.1 million cash reconciliation difference was posted to separate Fund Balance sub-accounts and the cash
differences remain identified as such. USAID is currently performing a reconciliation of the $45.1 million total
amount in these accounts and will make adjustments accordingly.
AUDITED                                                                                        Appendix IV
                                                                                               Page 32 of 68


USAID FY 2002 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 3. ACCOUNTS RECEIVABLE, NET (In Thousands)

The primary components of USAID’s accounts receivable as of September 30, 2002 and 2001 were as follows:
                                                                                     Receivable Receivable
                                                      Receivable     Allowance           Net           Net
                                                         Gross        Accounts          2.002         2.002
Entity
        Intragovernmental
             Appropriation Reimbursements
               from Federal Agencies                  $      334            N/A      $     334     $     202
             Accounts Receivable
               from Federal Agencies                        209             N/A            209         7,596
             Disbursing Authority
               Receivable from USDA                     495,826             N/A        495,826       415,779
        Total Intragovernmental                         496,369             N/A        496,369       423,577

              Accounts Receivable                              41,779            (11,987)         29,792         28,286
         Total Entity                                         538,148            (11,987)       526,161        451,863

Total Non-Entity                                                3,683             (2,359)          1,324          2,731
Total Receivables                                            $541,831      $      (14,346)    $ 527,485      $ 454,594
Reconciliation of Uncollectible Amounts (Allowance Accounts)

                                                               2002              2001
Beginning Balance                                           $ 13,090       $       11,463
Additions                                                      4,444                1,954
Reductions                                                    (3,188)                (327)
Ending Balance                                              $ 14,346       $      13,090

Entity Intragovernmental accounts receivable consist of amounts due from other U.S. Government agencies. No
allowance has been established for the intragovernmental accounts receivable, which are considered to be 100
percent collectible. Disbursing Authority Receivable from USDA consists of obligational authority from the U.S.
Department of Agriculture’s Commodity Credit Corporation. The authority is for payment of transportation costs
incurred by USAID associated with the shipment of Title II and III commodities; Farmer-to-Farmer Technical
Assistance Programs; and for assistance to private voluntary organizations, cooperatives, and international
organizations. Collections against this receivable are realized when USAID requests a transfer of funds from USDA
to cover incurred expenses.

All other entity accounts receivable consist of amounts managed by missions or USAID/Washington. These
receivables consist of non-program related receivables such as overdue advances, unrecovered advances, audit
findings, and any interest related to these types of receivables. A 100 percent allowance for uncollectible amounts is
estimated for governmental accounts receivable which are more that one year past due. Accounts receivable from
missions are collected and recorded to the respective appropriation.

Interest receivable is calculated separately and there is no interest included in the accounts receivable listed above.
AUDITED                                                                                  Appendix IV
                                                                                         Page 34 of 68


USAID FY 2002 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 4. ADVANCES AND PREPAYMENTS (In Thousands)

Advances and Prepayments as of September 30, 2002 and 2001 consisted of the following:

                                                                         2002               2001
Intragovernmental
         Advances to
             Federal Agencies                                         $46,527             $76,838
Total Intragovernmental                                                46,527              76,838

        Advances to Contractors/Grantees                              252,639             190,000
        Travel Advances                                                 2,240               3,920
        Advances to Host Country                                       53,988              42,071
            Governments and Institutions

        Prepayments                                                     7,932              20,627
        Advances, Other                                                12,963              13,619

Total Advances and Prepayments                                       $376,289            $347,075

Advances to Host Country Governments and Institutions represent amounts advanced by USAID missions to
host country governments and other in-country organizations, such as educational institutions and voluntary
organizations. Other Advances consist primarily of amounts advanced for living quarters and home service.
AUDITED                                                                                   Appendix IV
                                                                                          Page 35 of 68


USAID FY 2002 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 5. CASH AND OTHER MONETARY ASSETS (In Thousands)

Cash and Other Monetary Assets as of September 30, 2002 and 2001 are as follows:
Cash and Other Monetary Assets                                                     2002             2001
Imprest Fund- Headquarters                                                                 $0               $10
UE and Micro and Small                                                                     50                50
   Enterprise Fund Cash w/Fiscal Agent
Foreign Currencies                                                                    262,038           213,117
Total Cash and Other Monetary Assets                                                 $262,088          $213,177

USAID has imprest funds in various overseas locations. These funds are provided by the Department of State
overseas U.S. Disbursing Officers to which USAID is liable for any shortages. USAID’s portion of the Department
of State imprest funds provided to USAID was $4.1 million in FY 2002 and $3.8 million in FY 2001. These imprest
funds are not included in USAID’s Balance Sheet.

Foreign Currencies are related to Foreign Currency Trust Funds and this amounted to $262 million in FY 2002 and
$213 million in FY 2001. USAID does not have any non-entity cash or other monetary assets.
AUDITED                                                                         Appendix IV
                                                                                Page 36 of 68


USAID FY 2002 FOOTNOTES TO THE FINANCIAL STATEMENTS

NOTE 6. LOANS RECEIVABLE AND LIABILITIES FOR LOAN GUARANTEES (In
Thousands)


USAID operates the following loan and/or loan guarantee programs:

           Direct Loan Program (Direct Loan)
           Urban and Environmental Program (UE)
           Micro and Small Enterprise Development Program (MSED)
           Ukraine Export Insurance Credit Program (Ukraine)
           Israeli Loan Guarantee Program (Israeli Loan)
           Development Credit Authority Program (DCA)

Direct loans resulting from obligations made prior to FY 1992 are reported net of allowance for
estimated uncollectible loans. Estimated losses from defaults on loan guarantees resulting from
obligations made prior to FY 1992 are reported as a liability.

The Credit Reform Act of 1990 prescribes an alternative method of accounting for direct loans
and guarantees resulting from obligations made after FY 1991. Subsidy cost, which is the net
present value of the cash flows (i.e. interest rates, interest supplements, estimated defaults, fees,
and other cash flows) associated with direct loans and guarantees, is required by the Act to be
recognized as an expense in the year in which the direct loan or guarantee is disbursed. Subsidy
cost is calculated by agency program offices prior to obligation using a model prescribed by the
Office of Management and Budget (OMB). Subsidy relating to existing loans and guarantees is
generally required to be reestimated on an annual basis to adjust for changes in risk and interest
rate assumptions. Direct loans are reported net of an allowance for this subsidy cost (allowance
for subsidy). The subsidy costs associated with loan guarantees are reported as loan guarantee
liability.

An analysis of loans receivable, loan guarantees, liability for loan guarantees, and the nature and
amounts of the subsidy costs associated with the loans and loan guarantees are provided in the
following sections.

The following net loan receivable amounts are not the same as the proceeds that USAID would
expect to receive from selling its loans. Actual proceeds may be higher or lower depending on
the borrower and the status of the loan.
AUDITED                                                                                                    Appendix IV
                                                                                                           Page 37 of 68


USAID FY 2002 FOOTNOTES TO THE FINANCIAL STATEMENTS

NOTE 6. LOANS RECEIVABLE AND LIABILITIES FOR LOAN GUARANTEES (In
Thousands) - Continued
Direct Loans

Direct Loans Obligated Prior to FY 1992 (Allowance
for Loss Method) as of September 30, 2002:
                                                                                                    Allowance            Value of Assets
                                                     Loans Receivables      Interest                   For                 Related to
                  Loan Programs                            Gross           Receivable              Loan Losses            Direct Loans
       Direct Loans                                  $   8,843,329       $     350,800              $    3,428,309          $    5,765,820
       MSED                                                   1,386               83                     1,838                    (369)
                                   Total             $   8,844,715       $       350,883      $3,430,147             $     5,765,451

Direct Loans Obligated Prior to FY 1992 (Allowance
for Loss Method) as of September 30, 2001:

                                                                                                    Allowance            Value of Assets
                                                     Loans Receivables         Interest                 For                Related to
                  Loan Programs                            Gross             Receivable            Loan Losses            Direct Loans
       Direct Loans                                     $ 9,390,950          $ 348,328              $ 4,398,560            $ 5,340,718
       MSED                                                   1,488                  74                   2,280                   (718)
                                   Total                $ 9,392,438          $ 348,402              $ 4,400,840            $ 5,340,000




Direct Loans Obligated After FY 1991: as of
September 30, 2002:

                                                                                              Allowance
                                                                                              For Subsidy            Value of Assets
                                                     Loans Receivables   Interest             Cost                   Related to
                  Loan Programs                      Gross               Receivable           (Present Value)        Direct Loans
       Direct Loans                                  $     120,667       $            -       $      186,673         $      (66,006)
       MSED                                                    311                25                       468                  (131)
                                   Total             $     120,979       $           25       $      187,141         $      (66,137)

Direct Loans Obligated After FY 1991 as of
September 30, 2001:

                                                                                                     Allowance
                                                                                                    For Subsidy          Value of Assets
                                                     Loans Receivables        Interest                  Cost               Related to
                   Loan Programs                           Gross             Receivable           (Present Value)         Direct Loans

       Direct Loans                                  $     176,058       $                -   $       180,622        $        (4,564)
       MSED                                                    657                 35                      468                     224
                                   Total             $     176,715       $              35    $       181,089        $        (4,340)
AUDITED                                                                                                              Appendix IV
                                                                                                                     Page 38 of 68


USAID FY 2002 FOOTNOTES TO THE FINANCIAL STATEMENTS

NOTE 6. LOANS RECEIVABLE AND LIABILITIES FOR LOAN GUARANTEES (In
Thousands) – Continued
Total Amount of Direct Loans Disbursed

Direct Loan Programs                      FY 2002                   FY 2001

Direct Loans                              $         8,963,997       $      9,567,008
MSED                                                    1,697                  2,144
Total                                     $         8,965,694       $      9,569,152




Subsidy Expense for Direct Loans by Program and Component:




Modifications and Reestimates (FY 2002)

                                          Total                     Interest Rate           Technical         Total
Direct Loan Programs                      Modifications             Reestimates             Reestimates       Reestimates

Direct Loans                              $                     -   $                   -   $      (3,618) $            (3,618)
Total                                     $                     -   $                   -   $      (3,618) $            (3,618)



Modifications and Reestimates (FY 2001)

                                          Total                     Interest Rate           Technical         Total
Direct Loan Programs                      Modifications             Reestimates             Reestimates       Reestimates

Direct Loans                              $                -        $               -       $             -   $              -
Total                                     $                -        $               -       $             -   $              -




Total Direct Loan Subsidy Expense

Direct Loan Programs                      FY 2002                   FY 2001

Direct Loans                              $            (3,618)      $                   -
Total                                     $            (3,618)      $                   -
AUDITED                                                                                    Appendix IV
                                                                                           Page 39 of 68


USAID FY 2002 FOOTNOTES TO THE FINANCIAL STATEMENTS

NOTE 6. LOANS RECEIVABLE AND LIABILITIES FOR LOAN GUARANTEES (In
Thousands) - Continued
Schedule for Reconciling Subsidy Cost Allowance Balances
(Post-1991 Direct Loans)                                                            FY 2002

                                                                  Direct Loan           MSED                 Total
Beginning Balance, Changes, and Ending Balance
Beginning balance of the subsidy cost allowance                   $      180,622    $          468       $       181,089
Add: subsidy expense for direct loans disbursed during
the reporting years by component:
     (a) Interest rate differential costs
     (b) Default costs (net of recoveries)
     (c) Fees and other collections
     (d) Other subsidy costs
Total of the above subsidy expense components
Adjustments:
     (a) Loan modifications                                       $         6,627                    $                6,627
     (b) Fees received
     (c) Foreclosed property acquired
     (d) Loans written off                                                (6,343)                                 (6,343)
     (e) Subsidy allowance amortization                                       267                                     267
     (f) Other                                                              5,500                                   5,500
Ending balance of the subsidy cost allowance before reestimates   $      186,673    $          468       $       187,141
Add or subtract subsidy reestimates by component:
     (a) Interest rate reestimate
     (b) Technical/default reestimate
Total of the above reestimate components
Ending balance of the subsidy cost allowance                      $      186,673    $          468       $       187,141

Schedule for Reconciling Subsidy Cost Allowance Balances                            FY 2001
(Post-1991 Direct Loans)
                                                                  Direct Loan           MSED                 Total
Beginning Balance, Changes, and Ending Balance
Beginning balance of the subsidy cost allowance                   $      162,471    $          347       $       162,817
Add: subsidy expense for direct loans disbursed during
the reporting years by component:
     (a) Interest rate differential costs
     (b) Default costs (net of recoveries)
     (c) Fees and other collections
     (d) Other subsidy costs
Total of the above subsidy expense components
Adjustments:
     (a) Loan modifications                                       $        20,967                    $               20,967
     (b) Fees received
     (c) Foreclosed property acquired
     (d) Loans written off
     (e) Subsidy allowance amortization                                   (5,537)              121                (5,415)
     (f) Other                                                              2,721                                   2,721
Ending balance of the subsidy cost allowance before reestimates   $      180,622    $          468       $       181,089
Add or subtract subsidy reestimates by component:
     (a) Interest rate reestimate
     (b) Technical/default reestimate
Total of the above reestimate components
Ending balance of the subsidy cost allowance                      $      180,622    $          468       $       181,089
AUDITED                                                                                                         Appendix IV
                                                                                                                Page 40 of 68


USAID FY 2002 FOOTNOTES TO THE FINANCIAL STATEMENTS

NOTE 6. LOANS RECEIVABLE AND LIABILITIES FOR LOAN GUARANTEES (In
Thousands) - Continued

Defaulted Guaranteed Loans

Defaulted Guaranteed Loans from Pre-1992 Guarantees (Allowance for Loss Method): FY 2002
                                                                                                                       Value of
                                                                                                                    Assets Related
                                                                            Defaulted                                to Defaulted
                                                                           Guaranteed                                 Guaranteed
                                                                                Loans                     Allowance     Loans
                                                                           Receivable,        Interest    For Loan    Receivable,
                                           Loan Guarantee Programs              Gross        Receivable    Losses        Nets

          UE                                                         $       442,358     $        70,485 $      214,7 $    298,139
                                   Total                             $       442,358     $        70,485 $      214,7 $    298,139

Defaulted Guaranteed Loans from Pre-1992 Guarantees (Allowance for Loss Method): FY 2001

                                                                                                                       Value of
                                                                                                                    Assets Related
                                                                            Defaulted                                to Defaulted
                                                                           Guaranteed                                 Guaranteed
                                                                                Loans                     Allowance     Loans
                                                                           Receivable,        Interest    For Loan    Receivable,
                                           Loan Guarantee Programs              Gross        Receivable    Losses        Nets

          UE                                                         $       425,258     $        47,587 $      275,3 $    197,509
                                   Total                             $       425,258     $        47,587 $      275,3 $    197,509

Defaulted Guaranteed Loans from Post-1991 Guarantees

          In FY 2002, the UE Program experienced $6.5 million in defaults on payments, and the DCA Program experienced $.25 million in
          defaults
          on payments on post-1991 guaranteed loans.
          In FY 2001, the UE Program experienced $2.9 million in defaults on payments on post-1991 guaranteed loans.


Guaranteed Loans Outstanding:

          Guaranteed Loans Outstanding (FY 2002):
                                                                         Outstanding     Amount of
                                                                          Principal,     Outstanding
                                                                         Guaranteed       Principal
                                                                           Loans,
                         Loan Guarantee Programs                         Face Value          Guaranteed

          UE                                                         $     2,093,798     $ 2,093,798
          MSED                                                               115,700           58,150
          Israel                                                           9,206,027        9,206,027
          DCA                                                                297,620          106,110
                                   Total                             $    11,713,145     $ 11,464,085
AUDITED                                                                              Appendix IV
                                                                                     Page 41 of 68


USAID FY 2002 FOOTNOTES TO THE FINANCIAL STATEMENTS

NOTE 6. LOANS RECEIVABLE AND LIABILITIES FOR LOAN GUARANTEES (In
Thousands) - Continued

Guaranteed Loans Outstanding (FY 2001):
                                                  Outstanding          Amount of
                                                    Principal,         Outstanding
                                                Guaranteed Loans,       Principal
                  Loan Guarantee Programs          Face Value          Guaranteed

UE                                                   $     2,160,006            2,160,006
MSED                                                         118,650               59,325
Israel                                                     9,226,200            9,226,200
DCA                                                          135,750               63,025
Total                                                $    11,640,606         $ 11,508,556




New Guaranteed Loans Disbursed (FY 2002):
                                                  Outstanding          Amount of
                                                    Principal,         Outstanding
                                                Guaranteed Loans,       Principal
                  Loan Guarantee Programs          Face Value          Guaranteed

UE                                               $            21,500     $         21,500
MSED                                                           9,000                4,500
DCA                                                           38,420               19,210
                           Total                 $            68,920     $         45,210




New Guaranteed Loans Disbursed (FY 2001):
                                                  Outstanding          Amount of
                                                    Principal,         Outstanding
                                                Guaranteed Loans,       Principal
                  Loan Guarantee Programs          Face Value          Guaranteed

DCA                                         $            23,156          $         11,578
                           Total            $            23,156          $         11,578
AUDITED                                                                                                   Appendix IV
                                                                                                          Page 42 of 68


USAID FY 2002 FOOTNOTES TO THE FINANCIAL STATEMENTS

NOTE 6. LOANS RECEIVABLE AND LIABILITIES FOR LOAN GUARANTEES (In
Thousands) – Continued
Liability for Loan Guarantees (Estimated Future Default Claims for pre-1992 guarantees)
As of September 30, 2002:
                                                         Liabilities for
                                                            Losses on             Liabilities for             Total
                                                            Pre-1992             Loan Guarantees            Liabilities
                                                          Guarantees,             for Post-1991                for
                                                        Estimated Future            Guarantees,               Loan
                Loan Guarantee Programs                  Default Claims            Present Value            Guarantees

  UE                                                     $          328,083           $        58,315           $    386,399

  MSED                                                                     -                    (431)                     (431)

  Israel                                                                   -                  665,267                665,267

  DCA                                                                     -                    (2,484)                (2,484)
                        Total                            $          328,083           $       720,668            $ 1,048,751




Liability for Loan Guarantees (Estimated Future Default Claims for pre-1992 guarantees)
As of September 30, 2001:
                                                         Liabilities for
                                                            Losses on             Liabilities for             Total
                                                            Pre-1992             Loan Guarantees            Liabilities
                                                          Guarantees,             for Post-1991                for
                                                        Estimated Future            Guarantees,               Loan
                Loan Guarantee Programs                  Default Claims            Present Value            Guarantees

  UE                                                $         465,765                 $        74,945           $    540,709

  MSED                                                                     -                        289                    289

  Israel                                                                   -                  626,050                626,050

  DCA                                                                     -                       188                    188
                        Total                            $          465,765           $       701,471            $ 1,167,236
AUDITED                                                                                                              Appendix IV
                                                                                                                     Page 43 of 68


USAID FY 2002 FOOTNOTES TO THE FINANCIAL STATEMENTS

NOTE 6. LOANS RECEIVABLE AND LIABILITIES FOR LOAN GUARANTEES (In
Thousands) - Continued
Subsidy Expense for Loan Guarantees by Program
and Component:

   Subsidy Expense for New Loan Guarantees (FY 2002):


                                                              Interest                                  Fees and
                 Loan Guarantee Programs                    Supplements             Defaults             Other             Other             Total
                                                                                                       Collections

   UE                                                   $                   - $            1,613 $             (114) $                 - $           1,499
   DCA                                                                      -              1,125               (285)                   -               839
                           Total                        $                   - $            2,737 $             (399) $                 - $           2,338




   Subsidy Expense for New Loan Guarantees (FY 2001):


                                                              Interest                                  Fees and
                 Loan Guarantee Programs                    Supplements             Defaults             Other             Other             Total
                                                                                                       Collections

   DCA                                                  $                   -$             1,021 $             (321) $                 -$             700
                           Total                        $                   -$             1,021 $             (321) $                 -$             700




   Modifications and Reestimates (FY 2002):

                                                               Total              Interest Rate         Technical           Total
                 Loan Guarantee Programs                    Modifications         Reestimates          Reestimates       Reestimates

   UE                                                   $                   -$             2,080 $             7,257 $          9,337
   MSED                                                                     -            (1,324)               2,078              754
                           Total                        $                   -$               756 $             9,335 $         10,091



   Modifications and Reestimates (FY 2001):

                                                               Total              Interest Rate         Technical           Total
                 Loan Guarantee Programs                    Modifications         Reestimates          Reestimates       Reestimates

   UE                                                   $                   -$                 612 $           3,538 $             4,150
   MSED
                                                                            -              1,470               (963)                 508
                           Total                        $                   -$             2,083 $             2,575 $             4,658
AUDITED                                                                                                           Appendix IV
                                                                                                                  Page 44 of 68


USAID FY 2002 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 6. LOANS RECEIVABLE AND LIABILITIES FOR LOAN GUARANTEES
(In Thousands) - Continued

       Total Loan Guarantee Subsidy Expense:


                Loan Guarantee Programs                    FY 2002             FY 2001

       DCA                                          $                 839 $             700
       UE                                                          10,835             4,150
       MSED                                                           754               508
                          Total                     $              12,429 $           5,358



Subsidy Rates for Loan Guarantees by Program and Component:

       Budget Subsidy Rates for Loan Guarantees for the Current Year's Cohorts:
                                                                                                Fees and
                                                            Interest                               Other
                Loan Guarantee Programs                 Supplements (%)       Defaults (%)    Collections (%)       Other (%)

       DCA                                                                -           2.96%           (0.75)%                   -




Schedule for Reconciling Loan Guarantee Liability Balances
(Post-1991 Loan Guarantees)                                                                        FY 2002

                                                             DCA                  MSED               UE               Israel
        Beginning Balance, Changes, and Ending Balance
Beginning balance of the loan guarantee liability   $                212 $               289 $        74,945 $           626,050
Add: subsidy expense for guaranteed loans disbursed
        reporting years by component:
        (a) Interest supplement costs
        (b) Default costs (net of recoveries)                        839                                  1,499
        (c) Fees and other collections
        (d) Other subsidy costs                                        -                     -                -
Total of the above subsidy expense components       $                839 $                   - $          1,499 $               -
Adjustments:
        (a) Loan guarantee modifications
        (b) Fees received                                                                                 2,673
AUDITED                                                                                                           Appendix IV
                                                                                                                  Page 45 of 68



USAID FY 2002 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 6. LOANS RECEIVABLE AND LIABILITIES FOR LOAN GUARANTEES
(In Thousands) - Continued

Schedule for Reconciling Loan Guarantee Liability Balances
(Post-1991 Loan Guarantees)                                                                        FY 2001

                                                              DCA                MSED                UE              Israel
        Beginning Balance, Changes, and Ending Balance
Beginning balance of the loan guarantee liability        $             103 $          2,633 $         65,507 $          586,629
Add: subsidy expense for guaranteed loans disbursed
        reporting years by component:
        (a) Interest supplement costs
        (b) Default costs (net of recoveries)
        (c) Fees and other collections
        (d) Other subsidy costs                                        700
Total of the above subsidy expense components            $             700 $                - $               - $              -
Adjustments:
        (a) Loan guarantee modifications
        (b) Fees received                                $             159 $               201 $          2,499
        (c) Interest supplements paid
        (d) Foreclosed property and loans acquired
        (e) Claim payments to lenders                                                                  (2,935)
        (f) Interest accumulation on the liability balance                                19            4,919             39,421
        (g) Other                                                        (0)          (2,038)           9,262
Ending balance of the loan guarantee liability
before reestimates                                       $             962 $               815 $      79,253 $          626,050
Add or subtract subsidy reestimates by component:
        (a) Interest rate reestimate                                                   1,690          (15,484)
        (b) Technical/default reestimate                               (750)          (2,216)          11,176
        Total of the above reestimate components         $             (750) $          (526) $        (4,308) $              -
Ending balance of the loan guarantee liability           $              212 $            289 $         74,945 $         626,050




Administrative Expense


       Loan Programs                                         FY 2002             FY 2001

       DCA                                             $            3,066 $           3,083
       UE                                                           1,156               548
AUDITED                                                                                      Appendix IV
                                                                                             Page 46 of 68
USAID FY 2002 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 6. LOANS RECEIVABLE AND LIABILITIES FOR LOAN GUARANTEES
(In Thousands) - Continued
Other Information


    1 Allowance for Loss for Liquidating account (pre-Credit Reform Act) receivables have been calculate
      accordance with OMB guidance using a present value method which assigns risk ratings to receivabl
      upon the country of debtor. Thirteen countries are in violation of Section 620q of the Foreign Assista
      (FAA), owing $87.2 million that is more than six months delinquent. Eleven countries are in violatio
      Brooke-Alexander Amendment to the Foreign Operations Export Financing and Related Programs
      Appropriations Act, owing $486 million that is more than one year delinquent. Outstanding direct loa
      receivable for countries in violation of Section 620q totaled $76.5 million. Outstanding direct loans r
      for countries in violation of the Brooke Amendment totaled $432.9 million.


    2 The MSED Liquidating Account general ledger has a loan receivable balance of $1.4 million. This in
      loans pending closure. These loans are being carried at 100% bad debt allowance.

    3 The Ukraine program guarantees have expired, and the Ukraine Financing Account was closed out in


    4 For FY 2002, USAID used a net present value model, pursuant to OMB guidance, to calculate liquid
      bad debt accruals. The FY 2002 accruals derived from this model , and the resulting allowance balan
      follows:

      Program Allowance                                                  FY 2002 Accrual               FY 2
      Direct Loan Program loans receivable                    $                (869,853) $
      UE Program estimated loan guarantee defaults            $                (182,027) $


      Because this model was not available in FY 2001, an alternative methodology was used. Had this mo
      available, the FY 2001 allowances would have been as follows:

      Program Allowance                                                  FY 2001 Balance
      Direct Loan Program loans receivable                    $               2,992,102
      UE Program estimated loan guarantee defaults            $                 308,642
AUDITED                                                                                      Appendix IV
                                                                                             Page 47 of 68


USAID FY 2002 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 7. INVENTORY AND RELATED PROPERTY (In Thousands)

USAID's Inventory and Related Property is comprised of Operating Materials and Supplies. Operating Materials and
Supplies as of September 30, 2002 and 2001 are as follows:

                                                                              2002                 2001
Items Held for Use
       Office Supplies                                                        $8,691               $7,225

Items Held in Reserve for Future Use
       Disaster assistance materials and supplies                              5,909                7,478
       Birth control supplies                                                  5,641               11,396

Total                                                                        $20,241           $26,099

Operating Materials and Supplies are valued at historical cost and considered not held for sale.
AUDITED                                                                      Appendix IV
                                                                             Page 48 of 68


USAID FY 2002 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 8. GENERAL PROPERTY, PLANT AND EQUIPMENT, NET (In Thousands)

The components of PP&E at September 30, 2002 were:
                                                                      Accumulated      Net Book
                                            Useful Life     Cost      Depreciation      Value
Classes of Fixed Assets
         Equipment                          3 to 5 years    $40,631      ($27,988)       $12,643
         Buildings, Improvements, &           20 years       41,557       (18,671)        22,886
         Renovations
         Land and Land Rights                   N/A           4,056              -         4,056
         Assets Under Capital Lease                           7,081          (958)         6,123
         Construction in Progress               N/A             647              -           647
         Internal Use Software                               10,526        (2,432)         8,094

Total                                                      $104,498      ($50,049)       $54,449

The components of PP&E at September 30, 2001 were:
                                                                      Accumulated      Net Book
                                            Useful Life     Cost      Depreciation      Value
Classes of Fixed Assets
         Equipment                          3 to 5 years    $37,390      ($25,912)       $11,478
         Buildings, Improvements, &           20 years       37,060       (15,887)        21,173
         Renovations
         Land and Land Rights                   N/A           4,056              -         4,056
         Assets Under Capital Lease                           3,399          (424)         2,975
         Construction in Progress              N/A                -              -             -
         Internal Use Software                5 years         6,323          (632)         5,691

Total                                                       $88,228      ($42,855)       $45,373

USAID PP&E includes assets located in Washington, D.C. offices and overseas field missions.

For FY 2002, USAID capitalization criteria for assets was $25,000 except for internal use
software. The capitalization criteria for internal use software was $300,000. Assets meeting these
criteria are depreciated using the half-year straight line depreciation method.

Equipment consists primarily of electric generators, ADP hardware, vehicles and copiers located
at the overseas field missions.
AUDITED                                                                                   Appendix IV
                                                                                          Page 49 of 68


USAID FY 2002 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 8. GENERAL PROPERTY, PLANT AND EQUIPMENT, NET (In Thousands) Continued

Structures and Facilities include USAID owned office buildings and residences at foreign
missions, including the land on which these structures reside. These structures are used and
maintained by the field missions. USAID does not separately report the cost of the building and
the land on which the building resides.
Land consists of property owned by USAID in foreign countries. Usually the land is purchased with the intention of
constructing an office building at the site.
AUDITED                                                                                 Appendix IV
                                                                                        Page 50 of 68


USAID FY 2002 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 9. LEASES (In Thousands)

Leases as of September 30, 2002 and 2001 consisted of the following:
Entity as Lessee:
    CAPITAL LEASES:                                                              2002           2001
         Summary of Assets Under Capital Lease:
             Buildings                                                             $7,081       $3,399
             Accumulated Depreciation                                                 958          424
         Future Payments Due:

               Fiscal Year                                                  Future Costs    Future Costs
               2002                                                             N/A             $2,411
               2003                                                              $1,185          1,185
               2004                                                                 567            567
               2005                                                                 144            144
               2006 -                                                                  -              -
               2007 -                                                                  -           N/A
            After 5 Years                                                              -
Net Capital Lease Liability                                                      $1,896         $4,307

Lease Liabilities Covered by Budgetary Resources                                   $1,896       $4,307
Lease Liabilities Not Covered by Budgetary Resources                                    -            -

The capital lease liability is reported on USAID's Balance Sheet under Other Liabilities.

    Operating Leases:                                                            2002           2001

Future Payments Due:
               Fiscal Year                                                  FUTURE COSTS    Future Costs
               2002                                                             N/A              $70,090
               2003                                                             $70,470          65,182
               2004                                                              66,525          62,977
               2005                                                              64,486          58,538
               2006                                                              59,155          57,006
               2007                                                              58,091         N/A
            After 5 Years                                                       254,747         184,754
Total Future Lease Payments                                                    $573,474        $498,547
AUDITED                                                                    Appendix IV
                                                                           Page 51 of 68


USAID FY 2002 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 9. LEASES (In Thousands) Continued

Of the $573 million in future lease payments, $421 million is attributable to the Ronald Reagan
Building in Washington D.C., USAID’s headquarters. This building is leased by the General
Services Administration (GSA). USAID is charged rent intended to approximate commercial
rental rates. Lease payments for FY 2002 and 2001 amounted to $33 million and $32.8 million
respectively. An approximate increase of 9.8% will take effect in FY 2003. The remaining $152
million relates to other USAID Washington activity and mission related operating leases.
AUDITED                                                                                       Appendix IV
                                                                                              Page 52 of 68


USAID FY 2002 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 10. ACCOUNTS PAYABLE (In Thousands)

The Accounts Payable covered by budgetary resources as of September 30, 2002 and 2001 consisted of the
following:
                                                                                    2002           2001
Intragovernmental


         Accounts Payable                                                          $69,572        $35,496
         Disbursements in Transit                                                     -             -
Total Intragovernmental                                                             69,572         35,496


         Accounts Payable                                                         1,101,961      1,160,263
         Disbursements in Transit                                                     -                   11


Total Accounts Payable                                                        $1,171,533        $1,195,770

Intragovernmental Accounts Payable are those payable to other federal agencies and consist mainly of unliquidated
obligation balances related to interagency agreements between USAID and other federal agencies.

All other Accounts Payable represents liabilities to other non-federal entities
AUDITED                                                                                   Appendix IV
                                                                                          Page 53 of 68


USAID FY 2002 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 11. DEBT (In Thousands)

USAID Intragovernmental debt as of September 30, 2002 and 2001 consisted of the following borrowings from
Treasury for post-1991 loan programs, which is classified as other debt:
                                   2001                                2001                        2002
                                 Beginning            Net            Ending         Net           Ending
                                  Balance         Borrowing          Balance    Borrowing        Balance
Urban & Environmental          $      -           $      -        $       -      $         -     $         -
Direct Loan                         114,772            (51,957)        62,815         (47,255)          15,560
MSED                                      1,713          -              1,713            (529)           1,184
Total Debt                         $116,485           ($51,957)       $64,528        ($47,784)         $16,744

Pursuant to the Credit Reform Act of 1990, agencies with credit programs have permanent indefinite authority to
borrow funds from the Treasury. These funds are used to disburse new direct loans to the public and, in certain
situations, to cover credit reform program costs. Liquidating (pre-1992) accounts have permanent indefinite
borrowing authority to be used to cover program costs when they exceed account resources. UE Program debt
includes amounts borrowed before the effective date of the Credit Reform Act of 1990.

The above disclosed debt is principal payable to Treasury, which represents financing account borrowings from the
Treasury under the Credit Reform Act. In addition, there is net liquidating account equity in the amount of $5.9
billion, which under the Credit Reform Act is required to be recorded as Due to Treasury. Both of these accounts
are used exclusively for credit reform activity. All debt shown is intragovernmental debt.
AUDITED                                                                                      Appendix IV
                                                                                             Page 54 of 68


USAID FY 2002 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 12. OTHER LIABILITIES (In Thousands)

As of September 30, 2002 and 2001 Other Liabilities consisted of the following:

Intragovernmental                                                              2002                         2001


        OPAC Suspense                                                                  ($2,901)           ($35,876)
        Deposit and Clearing Accounts                                                     2,030               3,578
        Unfunded FECA Liability                                                           6,421               7,416
        Other                                                                           44,703               55,754
Total Intragovernmental                                                                 50,253               30,872


         Accrued Funded Payroll/Benefits                                                  4,841              11,746
         Deferred Credit                                                                  1,692               1,793
         Liability for Deposit Funds and Suspense Accounts – Non-Entity                   3,044               (100)
         Foreign Currency Trust Fund                                                   262,038              213,116
         Trust Fund Balances                                                            17,424               14,388
         Unfunded Leave                                                                 26,696               25,490
         Capital Lease Liability                                                          1,896                    -
         Other                                                                                4                    4


Total Other Liabilities                                                               $367,888            $297,309

All liabilities are current. Intragovernmental Liabilities represent amounts due to other federal agencies. All
remaining Other Liabilities are liabilities to non-federal entities.
AUDITED                                                                                  Appendix IV
                                                                                         Page 55 of 68


USAID FY 2002 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 13. ACCRUED UNFUNDED ANNUAL LEAVE AND SEPARATION PAY (In Thousands)

Accrued unfunded benefits for annual leave and separation pay as of September 30, 2002 and 2001 are:
                                                                            2002              2001
Liabilities Not Covered by Budgetary Resources
        Accrued Annual Leave                                                   $26,291           $25,485
        FSN Separation Pay Liability                                               405                 5
Total Accrued Unfunded Annual Leave and Separation Pay                         $26,696           $25,490
AUDITED                                                                                     Appendix IV
                                                                                           Page 56 of 68


USAID FY 2002 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 14. ACCRUED UNFUNDED WORKERS’ COMPENSATION BENEFITS (In Thousands)

The provision for workers’ compensation benefits payable, as of September 30, 2002 and 2001 are as follows:
                                                                                  2002
                                                                                                      2001
Liabilities Not Covered by Budgetary Resources
         Accrued Unfunded Workers' Compensation                                        $6,421              $7,416
         Future Workers' Compensation Benefits                                         28,251              30,905
Total Accrued Unfunded Workers Compensation Benefits                                 $34,672             $38,321


The Federal Employees Compensation Act (FECA) program is administered by the U.S. Department of Labor
(DOL) and provides income and medical cost protection to covered Federal civilian employees who have been
injured on the job or have incurred a work-related occupational disease. Compensation is given to beneficiaries of
employees whose death is attributable to a job-related injury or occupational disease. DOL initially pays valid
FECA claims for all Federal government agencies and seeks reimbursement two fiscal years later from the Federal
agencies employing the claimants.

USAID’s total FECA liability is $34.7 million as of September 30, 2002 and comprises of unpaid FECA billings for
$6.4 million and estimated future FECA costs of $28.3 million.

For FY 2001, USAID’s total FECA liability was $38.3 million and comprised of unpaid FECA billings for $7.4
million and estimated future FECA costs of $30.9 million.

Estimated future FECA costs are determined by the Department of Labor. This liability is determined using a paid
losses extrapolation method calculated over a 37 year period. This method utilizes historical benefit payment
patterns related to a specific incurred period to predict the ultimate payments related to that period. These annual
benefit payments have been discounted to present value. The interest rate assumptions used for discounting were
5.50% in year 1 and year 2, 5.55% in year 3, and 5.60% in year 4 and thereafter.

The decrease of $2.6 million for Future Workers’ Compensation Benefits is shown as a financing source yet to be
provided on the Statement of Financing.
AUDITED                                                                                      Appendix IV
                                                                                             Page 57 of 68


USAID FY 2002 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 15. COMMITMENTS AND CONTINGENCIES

USAID is involved in certain claims, suits, and complaints that have been filed or are pending. These matters are in
the ordinary course of the Agency’s operations and are not expected to have a material adverse effect on the
Agency’s financial operations.

USAID is involved in a group of cases before the US Court of Federal Claims which disputes appropriate indirect
cost rates to be charged where contract rates do not match Negotiated Indirect Cost Rate Agreement (NICRA) rates.
It is reasonably possible that USAID might lose this case. Any adverse judgment would likely be paid out of the
Department of Treasury’s Judgment Fund, but then be reimbursed by the Agency. In this case the amounts claimed
are $2.2 million, exclusive of Equal Access to Justice Fees. To date, discovery has officially concluded on one of
the cases in this group. Agreement was not reached during settlement discussions, and dispositive motions were
filed by both parties. The Court entered summary judgment in favor of the Government. The Government expects
the plaintiff to appeal the lower court's ruling to the Federal Circuit.

USAID settled a case before the Armed Service Board of Contract Appeals to dispute a matter related to fair
opportunity to compete an indefinite quantity, multiple award, task order contract for advisory services, technical
assistance, and training in the area of sustainable urban management.
AUDITED                                                                                   Appendix IV
                                                                                          Page 58 of 68


USAID FY 2002 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 16. LIABILITIES NOT COVERED BY BUDGETARY RESOURCES (In Thousands)

Liabilities not covered by budgetary resources as of September 30, 2002 and 2001 are as follows:

                                                                                  2002       2001

         Contingent Liabilities for Loan Guarantees                           $328,083      $465,765
         Accrued Unfunded Annual Leave and Separation Pay                       26,696        25,490
         Accrued Unfunded Workers Compensation Benefits                         34,672        38,321
Total Liabilities not covered by Budgetary Resources                           389,451       529,576
Total Liabilities covered by Budgetary Resources                             8,102,891     7,504,634
Total Liabilities                                                           $8,492,342    $8,034,210

All liabilities not covered by Budgetary Resources are non-federal liabilities.
AUDITED                                                                                 Appendix IV
                                                                                        Page 59 of 68


USAID FY 2002 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 17. TOTAL COST AND EARNED REVENUE BY BUDGET FUNCTIONAL CLASSIFICATION
(In Thousands)

Total Cost and Earned Revenue by Budget Functional Classification, as of September 30, 2002 are as follows:
                                                                                      Earned
                       Function Classification                         Gross Cost     Revenue         Net Cost


International Development and Humanitarian Assistance- 151               $5,176,694     ($81,359)      $5,095,335
International Security Assistance- 152                                    2,935,308     (158,914)        2,776,394
Conduct of Foreign Affairs- 153                                              44,880         -                 44,880
Federal Employee Retirement and Disability- 602                                 750         -                    750
Total                                                                    $8,157,632    ($240,273)      $7,917,359




Total Cost and Earned Revenue by Budget Functional Classification, as of September 30, 2001 are as follows:


                                                                                      Earned
                       Function Classification                         Gross Cost     Revenue         Net Cost


International Development and Humanitarian Assistance- 151               $4,722,391     ($81,653)      $4,640,738
International Security Assistance- 152                                    2,302,752         (350)        2,302,402
Conduct of Foreign Affairs- 153                                              44,489         -                 44,489
Federal Employee Retirement and Disability- 602                               1,906         -                  1,906
Total                                                                    $7,071,538     ($82,003)      $6,989,535
AUDITED                                                                                    Appendix IV
                                                                                           Page 60 of 68


USAID FY 2002 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 18. PRIOR PERIOD ADJUSTMENTS

Two prior period adjustments were made in FY 2002.

The Department of Treasury advised USAID and the Department of Agriculture on new guidelines for recording
transfers from the Department of Agriculture's Commodity Credit Corporation. Since the transfer of funds is not a
transfer of appropriated funds, the Unexpended Appropriation Net Position account 3100 should not be used. An
adjustment of $483,707,031.18 for changes in accounting principles was made to reduce the Unexpended
Appropriation balance via posting to account 3109 Unexpended Appropriations - Prior Year Adjustments and to
account 7400 Prior Period Adjustment - Not Restated. This adjustment does not have an effect on the Agency's net
position.

A credit adjustment of $190,041.25 was made during FY 2002 to the Micro and Small Enterprise Development
financing fund to correct an equity posting error that occurred in FY 2001. This adjustment does not have a material
effect on the Agency's net position.

Three prior period adjustments were made in FY 2001 involving credit program funds.
Reversals of accrued year-end FY 2000 re-estimated subsidy liabilities in the Micro and Small Enterprise
Development program fund for $1,143,000 and also in the Urban and Environmental program fund for $9,897,000
were made. These amounts had already been closed to cumulative results of operations as part of the FY 2000 year-
end closing process. FY 2001 adjustments for upward re-estimates of subsidy liability are reflected in year-end
account balances for future funded expenses. Future funded expenses are closed to cumulative results of operations
at year-end.

An adjustment for $242,211 was made to establish unfunded annual leave in the Development Credit Authority
(DCA) program fund. In previous years, unfunded annual leave was recorded in the Urban and Environmental (UE)
program fund.
AUDITED                                                                                     Appendix IV
                                                                                            Page 61 of 68


USAID FY 2002 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 19. STATEMENT OF BUDGETARY RESOURCES (In Thousands)

A. Apportionment Categories of Obligations Incurred:


                                                                             2002*            2001
Category A, Direct                                                          $1,352,128         $600,374
Category B, Direct                                                            7,556,091     6,158,155
Category A, Reimbursable                                                            9,921    12,112
Category B, Reimbursable                                                       168,589           33,397
Total                                                                       $9,086,729       $6,804,038


* 2002 includes allocations from other agencies, which were not included in 2001.


B. Borrowing Authority, End of Period and Terms of Borrowing Authority Used:


Borrowing authority for FY 2002 was $464,645 for Credit Financing Activities. There was no borrowing authority
in FY 2001.



Borrowing Authority is indefinite and authorized under the Credit Reform Act of 1990 (P.L. 101-508), and is used to
finance obligations during the current year, as needed.


C. Adjustments to Beginning Balance of Budgetary Resources:




A difference exists between the FY 2001 Ending Obligated Balance and the FY 2002 Beginning Obligated Balance.
This difference exists due to the exclusion of 6 appropriations (0091, 0113, 0535, 1075, 1154, and 4336) from
USAID's FY 2002 Statement of Budgetary Resources that were allocated from other Federal agencies. The parent
agencies include these funds in their Statement of Budgetary Resources.


The amounts related to other agency activity as of September 30, 2002 were as follows:


Ending Balance, per FY 2001 Financial Statements:                                            $9,223,430
Less: Transferred Funds                                                                     (321,673)


Beginning Balance, per FY 2002 Financial Statements:                                         $8,901,757
AUDITED                                                                                      Appendix IV
                                                                                             Page 62 of 68


USAID FY 2002 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 19. STATEMENT OF BUDGETARY RESOURCES (In Thousands) – Continued

D. Permanent Indefinite Appropriations:

USAID has permanent indefinite appropriations relating to specific Credit Reform Program and Liquidating
appropriations. USAID is authorized permanent indefinite authority for Credit Reform Program appropriations for
subsidy reestimates, and Credit Reform Liquidating appropriations for potential claims in excess of funds
availability. Both are authorized under the Credit Reform Act of 1990.

E. Legal Arrangements Affecting the Use of Unobligated Balances:

Pursuant to Section 511 of PL 107-115 funds shall remain available until expended if such funds are initially
obligated before the expiration of their periods of availability. Any subsequent recoveries (deobligations) of these
funds become unobligated balances that are available for reprogramming by USAID (subject to OMB approval
through the apportionment process).
AUDITED                                                                                    Appendix IV
                                                                                           Page 63 of 68


USAID FY 2002 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 20. STATEMENT OF BUDGETARY RESOURCES - OTHER INFORMATION

Beginning in the 2002 Fiscal Year, changes were made to present USAID's Statement of Budgetary Resources
(SBR) information consistent with the Budget of the United States Government. Allocated appropriations from
other federal agencies were excluded from the face of the SBR and allocated appropriations to other federal agencies
were included in the statement. This is a departure from prior years, where allocations to and from other federal
agencies were regarded as differences between the Budget of the United States Government and the SBR and
disclosed in a footnote.

USAID has identified $69.5 million cumulative remaining balance of undelivered orders (unliquidated obligations)
for Washington managed funds that may be in excess of amounts required under these obligations. These amounts
will need to be reviewed for possible deobligation in FY 2003.
AUDITED                                                                                    Appendix IV
                                                                                           Page 64 of 68


USAID FY 2002 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 21. STATEMENT OF FINANCING - OTHER

Explanation of the Relationship Between Liabilities Not Covered by Budgetary Resources on the Balance
Sheet and the Change in Components Requiring or Generating Resources in Future Periods

A portion of net increase in contingent liabilities for loan guarantees from FY 2001 includes the $22,947,070.20 for
credit subsidy expense reestimates requiring resources in future periods which is shown on the Statement of
Financing. Accrued Unfunded Annual leave on the balance sheet is shown as a cumulative balance, with the current
period changes of $1,205,919.24. This increase is shown on the Statement of Financing as a change in components
requiring resources in future periods. Increase in exchange revenue from the Public includes current-period
increases in Accrued Unfunded Workers Compensation Benefits of $3,648,531.20, which is shown as liabilities not
covered by budgetary resources, with other non-related expenses that require future resources.

Description of Transfers that Appear as a Reconciling Item on the Statement of Financing

In order to reconcile to Budget of the United States Government, appropriations that are transferred from other
Federal Agencies to USAID are not shown on the Statement of Budgetary Resources, but are shown on the Balance
Sheet and Statement of Net Cost. Appropriations that are transferred to other agencies are shown on the Statement
of Budgetary Resources, but are not shown on the Balance Sheet or the Statement of Net Cost. Below is a
reconciliation of obligations and spending authority from offsetting collections between the Statement of Budgetary
Resources and the Statement of Financing.

Net Obligations Per Statement of Budgetary Resources                                                   9,086,729

  Less: Transfers to Other Agencies
     Dept of State                                                                       (698,049)
     Independent Agencies                                                                     (447)
     Nuclear Regulatory Commission                                                          (3,394)    (701,890)


  Add: Transfers from Other Agencies
     Dept of State                                                                         211,500
     Dept of Agriculture                                                                   606,276
     Dept of State                                                                             884
     Executive Office of the President                                                         400
     Other                                                                                     167       819,227

Net Obligations Per Statement of Financing                                                             9,204,066
AUDITED                                                                               Appendix IV
                                                                                      Page 65 of 68


USAID FY 2002 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 21. STATEMENT OF FINANCING - OTHER – Continued

Spending Authority from Offsetting Collections Per Statement of Budgetary Resources              1,147,155

     Less: Transfers to Other Agencies
          Dept of State                                                                (3,948)
          Other                                                                            45      (3,903)

     Add: Allocations from Other Agencies
          Executive Office of the President                                               400         400

Spending Authority from Offsetting Collections Per Statement of Financing                        1,143,652
AUDITED                                        Appendix IV
                                               Page 66 of 68




          This page intentionally left blank
AUDITED   Appendix IV
          Page 67 of 68
AUDITED                                                                              Appendix IV
                                                                                     Page 68 of 68


                        U.S. Agency for International Development
       REQUIRED SUPPLEMENTARY INFORMATION: INTRAGOVERNMENTAL AMOUNTS
                                As of September 30, 2002
                                      (in thousands)

Intragovernmental assets:

Agency                                                Accounts          Advances
                                    Fund Balance     Receivable,           and
                                    with Treasury       Net            Prepayments     Totals
Treasury                                11,897,972                 -           481    11,898,4
                                                                                            53
Dept of Agriculture                             -        495,826             1,932    497,758
Dept of Commerce                                -              -            18,604      18,604
Dept of State                                   -              -            12,298      12,298
Other                                           -            543            13,212      13,755
Total                                  11,897,972        496,369            46,527    12,440,8
                                                                                            68




Intragovernmental liabilities:

Agency                                 Due to         Accounts
                                      Treasury        Payable             Debt        Other        Totals
Treasury                                5,859,175              -           16,744     41,417     5,917,336
GSA                                             -         10,698                -           -       10,698
Dept of Agriculture                             -         18,588                -           -       18,588
Dept of Labor                                   -          3,136                -      6,421         9,557
Dept of Health and Human Services               -         13,646                -           -       13,646
Other                                           -         23,504                -      2,415        25,919
Total                                   5,859,175         69,572           16,744     50,253     5,995,744
